<html>
<title> - H.R._,THE TSCA MODERNIZATION ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
              H.R. ___, THE TSCA MODERNIZATION ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-30
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                ________
           
                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-937 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                      
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota             
                                  _____


              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    19
    Prepared statement...........................................    20
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    20
    Prepared statement...........................................    22

                               Witnesses

Hon. James Jones, Assistant Administrator, Office of Chemical 
  Safety and Pollution Prevention, Environmental Protection 
  Agency.........................................................     5
    Prepared statement...........................................     8
Michael P. Walls, Vice President, Regulatory and Technical 
  Affairs, American Chemistry Council............................    41
    Prepared statement...........................................    44
Beth D. Bosley, President, Boron Specialties, LLC, on Behalf of 
  the Society of Chemical Manufacturers and Affiliates...........    48
    Prepared statement...........................................    50
Jennifer Thomas, Senior Director, Federal Government Affairs, 
  Alliance of Automobile Manufacturers...........................    56
    Prepared statement...........................................    58
Andy Igrejas, Director, Safer Chemicals, Healthy Families........    66
    Prepared statement...........................................    68

                           Submitted Material

Discussion draft, H.R. ___, the TSCA Modernization Act of 2015, 
  submitted by Mr. Shimkus.......................................    81
Letter of April 14, 2015, from Ernest S. Rosenberg, President and 
  Chief Executive Officer, American Cleaning Institute, to Mr. 
  Shimkus and Mr. Tonko, submitted by Mr. Shimkus................   111
Letter of April 14, 2015, from Scott Faber, Vice President of 
  Government Affairs, Environmental Working Group, to Mr. Shimkus 
  and Mr. Tonko, submitted by Mr. Shimkus........................   113
Letter of April 14, 2015, from Jason Grumet, President, 
  Bipartisan Policy Center, to Mr. Upton, et al., submitted by 
  Mr. Shimkus....................................................   115
Letter of April 13, 2015, from Norbert E. Kaminski, President, 
  Society of Toxicology, to Mr. Shimkus and Mr. Tonko, submitted 
  by Mr. Shimkus.................................................   116
Letter of April 14, 2015, from Linda A. Lipsen, Chief Executive 
  Officer, American Association for Justice, to Mr. Shimkus and 
  Mr. Tonko, submitted by Mr. Shimkus............................   119
Testimony of Dr. Paul A. Locke, Associate Professor, Johns 
  Hopkins Bloomberg School of Public Health, April 14, 2015, 
  submitted by Mr. Shimkus.......................................   121
Letter of April 14, 2015, from Andrew N. Liveris, Chairman and 
  Chief Executive Officer, Dow Chemical Company, to Mr. Upton, 
  submitted by Mr. Shimkus.......................................   123


              H.R. ___, THE TSCA MODERNIZATION ACT OF 2015

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, Latta, 
McKinley, Johnson, Bucshon, Flores, Hudson, Cramer, Upton (ex 
officio), Tonko, Schrader, Green, DeGette, Capps, McNerney, 
Cardenas, and Pallone (ex officio).
    Staff present: Charlotte Baker, Deputy Communications 
Director; Leighton Brown, Press Assistant; Noelle Clemente, 
Press Secretary; Jerry Couri, Senior Environmental Policy 
Advisor; David McCarthy, Chief Counsel, Environment and the 
Economy; Tim Pataki, Professional Staff Member; Tina Richards, 
Counsel, Environment and the Economy; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Jessica Wilkerson, 
Legislative Clerk; Jacqueline Cohen, Democratic Senior Counsel; 
Rick Kessler, Democratic Senior Advisor and Staff Director, 
Energy and the Environment; and Ryan Schmidt, Democratic EPA 
Detailee.
    Mr. Shimkus. The committee will come to order.
    Before I start with my opening statement, I want to 
recognize my classmate and my friend, Lois Capps, who has 
announced her retirement, although I imagine she will be a pain 
in our side for about a year and a half yet, so a very nice 
thing. So I will recognize myself for 5 minutes for an opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today marks an important milestone in our effort to 
modernize TSCA. The more we work together, Member to Member, on 
a bipartisan basis, the more we understand each other and how 
much we hope to accomplish. Our subcommittee has put in a lot 
of hours on TSCA over the past couple years, and actually I 
would say the past couple weeks, and that effort, we believe, 
is about to pay off. It is gratifying to work directly with 
Members on both sides of the aisle who bring so much dedication 
to the task.
    A week ago we unveiled the bill before us today. Besides 
the bill language itself, that announcement carried a couple 
other important messages. First, Members have been working 
together directly, challenging each other to find common 
ground, and discovering that we share many policy objectives. 
Let's talk about some of those policy objectives.
    First, I think we all want EPA to do objective, science-
based examinations on some of the chemicals that are already on 
the market. EPA already has some of these in mind to evaluate 
because EPA thinks they have potential for unreasonable risk of 
injury to human health and the environment. Meanwhile, if 
manufacturers want to take a proactive approach and ask the 
Agency to perform a risk evaluation, we are OK with that as 
long as it meets the same rigorous science requirements as the 
ones EPA itself initiates, and the manufacturer is willing to 
pay the EPA administrative costs of performing the work.
    We also want to continue protecting confidential business 
information, but for CBI claims made after our bill becomes 
law, we would like manufacturers to reestablish those claims at 
least once every 10 years. We think EPA should be allowed to 
mandate testing on a chemical in order to complete a risk 
evaluation, since the risk evaluation step is new to TSCA.
    These are just a few of the provisions that appear in the 
discussion draft. I think we also agree that the process is, 
and should be, moving forward. Leading Members on both sides 
are committed to that momentum. We will listen carefully to 
stakeholders on what they like in the draft, and we welcome 
suggestions they have for improvement. We will collect those 
comments and then we will sit down as a subcommittee and make 
decisions. Members should plan on a subcommittee markup about a 
month from now on May 14th.
    To facilitate our work, we will publish a revised bill text 
reflecting consensus revisions in time to use as the 
subcommittee markup vehicle, and I will be asking Chairman 
Upton to schedule it for full committee consideration as soon 
as practicable after the subcommittee has done its work.
    I thank all of the witnesses today for their willingness to 
participate. Assistant Administrator Jim Jones, you are no 
stranger to this committee. Your agency has already offered 
some informal technical assistance for which we are grateful, 
and we expect to continue working with you on it until the 
final version passes both bodies of Congress and is signed by 
the President.
    We also welcome our second panel of witnesses. You are all 
also friends to this committee, and we have been grateful for 
your perspectives in the past. We look forward to hearing from 
you on this fresh new approach.
    Finally, I thank Chairman Upton for his full support on 
this bill, and my friends, Paul Tonko and Frank Pallone, and 
the subcommittee members and I would say the subcommittee staff 
on both sides for all their active participation and 
partnership in this project. Let's all keep working together to 
get this vitally important legislation enacted.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The subcommittee will come to order. Today marks an 
important milestone in our effort to modernize TSCA. The more 
we work together, Member to Member, on a bipartisan basis, the 
more we understand each other and how much we can accomplish. 
Our subcommittee has put in a lot of hours on TSCA over the 
past couple years, and that effort is about to pay off. It's 
gratifying to work directly with Members on both sides of the 
aisle who bring so much dedication to the task.
    A week ago we unveiled the bill before us today. Besides 
the bill language itself, that announcement carried a couple 
other important messages. First, Members have been working 
together directly, challenging each other to find common 
ground, and discovering that we share many policy objectives.
    Let's talk about some of those policy objectives. First, I 
think we all want EPA to do objective, science-based 
examinations of some of the chemicals that are already on the 
market. EPA already has some of these in mind to evaluate 
because EPA thinks they have potential for unreasonable risk of 
injury to human health or the environment.
    Meanwhile, if manufacturers want to take a pro-active 
approach and ask the Agency to perform a risk evaluation, we 
are OK with that as long as:
    <bullet> It meets the same rigorous science requirements as 
the ones EPA itself initiates; and
    <bullet> The manufacturer is willing to pay the EPA 
administrative cost of performing the work.
    We also want to continue protecting confidential business 
information but for CBI claims made after our bill becomes law, 
we'd like manufacturers to reestablish those claims at least 
once every 10 years.
    We think EPA should be allowed to mandate testing on a 
chemical in order to complete a risk evaluation, since the risk 
evaluation step is new to TSCA.
    These are just a few of the provisions that appear in the 
discussion draft.
    I think we also agree that the process is, and should be, 
moving forward.
    Leading Members on both sides are committed to that 
momentum.
    We'll listen carefully to stakeholders on what they like in 
the draft and we welcome suggestions they have for improvement. 
We'll collect those comments and then we'll sit down as a 
subcommittee and make decisions.
    Members should plan on a subcommittee mark up about a month 
from now on May 14th. To facilitate our work, we'll publish a 
revised bill text reflecting consensus revisions in time to use 
as the subcommittee mark-up vehicle. And I'll be asking 
Chairman Upton to schedule it for full committee consideration 
as soon as practicable after the subcommittee has done its 
work.
    I thank all of the witnesses today for their willingness to 
participate. Assistant Administrator Jim Jones, you are no 
stranger to this committee. Your agency has already offered 
some informal technical assistance for which we are grateful. 
And we expect to continue working with you on it until the 
final version passes both bodies of Congress and is signed by 
the President.
    We also welcome our second panel of witnesses. You are all 
also friends to this committee, and we've been grateful for 
your perspectives in the past. We look forward to hearing from 
you on this fresh new approach.
    Finally, I thank Chairman Upton for his full support on 
this bill, and my friends, Paul Tonko and Frank Pallone, and 
subcommittee members on both sides for their active partnership 
in this project.
    Let's all keep working together to get this vitally 
important legislation enacted.

    [Discussion draft H.R. ___ appears at the conclusion of the 
hearing.]
    Mr. Shimkus. And with that, I yield back my time and yield 
5 minutes to the gentleman from New York, Mr. Tonko.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and I certainly appreciate 
the tone. I value the friendship and partnership we have in 
serving this committee.
    Good morning to each and every one of our witnesses and to 
my fellow panelists here. Thank you, Chair Shimkus, for calling 
this important hearing, this very important hearing.
    Our subcommittee spent a good deal of time on the Toxic 
Substances Control Act in the last Congress. We had a number of 
very good hearings covering many of the provisions of the 
current law, and although we did not get to an agreement, the 
exercise provided the members of this subcommittee with a much 
better understanding of the current law and its associated 
shortcomings. It is a new Congress. We have another opportunity 
to develop a bill to address the key problems with current law.
    For much of the past 37 years, TSCA served the industry 
well, but I would caution that TSCA needs to be balanced. It 
needs to serve all perspectives well. Existing chemicals remain 
on the market, and new chemicals entered commerce through a 
limited review process that does not require licensing or 
compel the production of minimal data sets. Information 
provided by chemical manufacturers could be labeled as 
confidential business information with less review of whether 
the CBI claims were justified or not. Even in the face of 
strong evidence that a chemical substance indeed presented a 
significant risk, the Environmental Protection Agency was 
unable to act.
    For all practical purposes, TSCA has no enforceable safety 
standard. Under the law's standard of unreasonable risk and the 
requirement to produce substantial evidence, the burden of 
proof of harm as interpreted by the courts is too high to 
enable EPA to address even well-characterized risks. In 
addition, the Agency has insufficient resources and little 
authority to require manufacturers to produce information for 
an adequate evaluation of those chemical risks. This is 
especially true for thousands of older chemicals that remained 
in commerce with no evaluation from the time the law was passed 
to the present moment.
    The overriding problem with TSCA is that the public has no 
confidence in this Federal program. As a result, the public 
does not believe that the presence of a chemical in the 
marketplace has any relationship to its safety. That is not 
good for industry and it is not good for the public. The 
Federal program must have credibility.
    The discussion draft that is the subject of today's hearing 
represents a significant departure from the proposal offered by 
Senator Vitter and Senator Udall, and I believe that is an 
important step here in this House. It is also different from 
the approach taken in the House last year. So I believe that 
this draft has a number of benefits relative to these two other 
proposals, and that is a very beneficial thing in this process.
    I want to commend the Chair for working with us and 
demonstrating a desire to discuss and address concerns raised 
by Democratic members and by different stakeholders and 
interest groups. I appreciate and applaud the Chair's decision 
to narrow the scope of this effort and to focus on the key 
problems with TSCA.
    Again, I appreciate the partnership and the friendship, but 
there is much more work to do, and I am prepared to work with 
you as are the other members of our subcommittee, Mr. Chair. My 
hope is that we can produce a bill that all members of our 
subcommittee can support, one that truly can become law. If we 
are to do that, the final product must reflect compromise and 
gain the support of a broad coalition representing all of the 
major stakeholder groups and it must have the support of the 
administration. I believe we can get there and that this 
discussion draft makes a great start toward the goal of passing 
a law but I do not want to mislead anyone. There are still some 
tough issues to address. A new TSCA must do more for public 
health and the environment than the current law. It must 
preserve State authority to act to protect their citizens in 
the absence of meaningful Federal action, and changes in policy 
alone will not be enough. The Agency must have adequate 
resources by which to fulfill its obligation to the public and 
to the regulated community. A reformed TSCA should generate 
more innovation, not more litigation.
    I want to thank all of our witnesses who are participating 
in today's very important hearing. Your input on this draft 
legislation will be very important to our efforts as we move 
forward, and again, I would like to thank you, Mr. Chair, and 
commend you for tackling this important and very challenging 
issue. It is not easy. I look forward to working with you and 
the other members of this subcommittee to complete this very 
important task.
    And with that, I yield back.
    Mr. Shimkus. The gentleman yields back his time, and you 
know, without objection, what I would like to do, Mr. Jones, is 
allow you to go for 5 minutes, and then when Chairman Upton and 
the ranking member come, after that we will let them give their 
opening statements, and with that, you are recognized for 5 
minutes.
    Welcome.

STATEMENT OF HON. JAMES JONES, ASSISTANT ADMINISTRATOR, OFFICE 
  OF CHEMICAL SAFETY AND POLLUTION PREVENTION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Jones. Thank you. Good morning, Chairman Shimkus, 
Ranking Member Tonko, and other members of the subcommittee. I 
appreciate the opportunity to join you today to discuss the 
much-needed reform of chemicals management in the United States 
and the opportunity to engage early on the recently released 
discussion draft, the TSCA Modernization Act of 2015.
    As you know, chemicals are found in almost everything we 
buy and use. They contribute to our health, our well-being and 
our prosperity. However, we believe it is essential that 
chemicals are also safe.
    TSCA gives the EPA the jurisdiction over chemicals 
produced, used, and imported into the United States. However, 
unlike laws applicable to pesticides and drugs, TSCA does not 
have a mandatory program that requires EPA to conduct a review 
to determine the safety of existing chemicals. In addition, 
TSCA places burdensome legal and procedural requirement on the 
EPA before the Agency can request a generation and submission 
of health and environmental effects data on existing chemicals. 
As a result, in the more than 3 \1/2\ decades since the passage 
of TSCA, the EPA has only been able to require testing on a 
little more than 200 of the original 60,000 chemicals listed on 
the TSCA inventory and has regulated or banned only five of 
these chemicals under TSCA Section 630, the last of which was 
in 1990. In the 25 years since, the EPA has largely relied on 
voluntary action to collect data and address risks.
    In the absence of additional Federal action, an increasing 
number of States are taking actions on chemicals to protect 
their residents, and the private sector is making their own 
decisions about chemicals to protect their interest and to 
respond to consumers, it is clear that even with the best 
efforts under current law and resources, we need to update and 
strengthen TSCA and provide the EPA with the appropriate tools 
to protect the American people from exposure to harmful 
chemicals.
    The EPA believes that it is critical that any update to 
TSCA include certain components. In September 2009, the 
administration announced a set of six principles to update and 
strengthen TSCA.
    While the administration does not have a position on the 
discussion draft, there are several important observations that 
I would like to offer.
    The discussion draft provides the EPA with more effective 
authority to compel the generation of health and safety data on 
existing chemicals. The discussion draft should give the EPA 
authority to set priorities for conducting safety reviews on 
existing chemicals based on relevant risk and exposure 
considerations. The draft includes two means by which risk 
evaluations could be initiated for existing chemicals. The 
first is that EPA would be required to conduct a risk 
evaluation upon a finding that the combination of hazard from 
and exposure to a particular chemical substance has the 
potential to create an unreasonable risk of injury to health or 
the environment. The second allows for a chemical manufacturer 
to request that EPA conduct a risk evaluation for a particular 
chemical substance. In practice, this would likely lead to EPA 
focusing the majority of its limited risk evaluation resources 
on completing evaluations for chemical substances requested by 
industry, which, once requested, start the clock ticking on a 
number of deadlines. This could result in evaluations for the 
chemicals with the most potential for risk being put off 
indefinitely while EPA works on the evaluations requested by 
industry. Additionally, the requirement that EPA make an 
affirmative finding of the potential for unreasonable risk, 
prior to initiating a risk evaluation, creates a possible 
analytical catch-22 in which EPA must make a finding regarding 
the potential for risk prior to beginning the risk evaluation 
process. I note that once the EPA is able to conduct an 
evaluation that finds risk, the discussion draft appears to 
impose rigorous deadlines for taking regulatory action to 
reduce those risks. However, in many cases the deadlines in the 
draft are unreasonably short.
    The use of TSCA section 6 to limit or ban a chemical that 
poses a significant risk has been a major challenge. The 
discussion draft clearly removes TSCA's requirement that the 
EPA demonstrate it is using the least burdensome requirements 
needed to provide adequate protection. The draft appears 
consistent with Principle 1 in that it specifies that risk 
assessments should include consideration of information on 
potentially exposed populations but not information on cost and 
other factors not directly related to health or the 
environment. The discussion draft, however, is ambiguous on how 
EPA is to incorporate cost and other factors into a risk-
management rule under section 6(a).
    In the current discussion draft, the cap on fees is 
eliminated; however, there are not provisions that ensure EPA 
will be given a sustained source of funding for implementation, 
as articulated in Principle 6. The discussion draft is 
consistent with the administration principles in the area of 
transparency and availability of information on chemicals, 
including giving the EPA the ability to share chemical data 
with State, local, and tribal governments.
    Mr. Chairman, thank you again for your leadership on TSCA 
reform. I will be happy to answer any questions you or other 
members have.
    [The prepared statement of Mr. Jones follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much for your opening 
statement, and I appreciate the comments. I would like to turn 
to Chairman Upton and thank him for his friendship and support 
as we move forward, and you're recognized for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    It is today an important milestone as we work to bring our 
chemical safety laws into the 21st century, and I thank 
Chairman Shimkus for his bipartisan member-to-member work 
bringing this legislation before the subcommittee. I also 
commend the ranking member of the full committee, Mr. Pallone, 
for collaborating across the aisle to develop a proposal that 
in fact we can all embrace.
    We have heard from a diverse cross-section of stakeholders 
that TSCA needs modernizing. When first enacted nearly four 
decades ago, the structure was a bit of an experiment. When our 
predecessors on this committee designed TSCA, they were clearly 
attempting to reconcile diverse points of view within Congress 
and with the American public. But our challenge today is the 
same, but now we have the benefit of experience. Our witnesses 
include the administration's main point person on chemical 
regulation, industry experts with global regulatory experience, 
and a person who manages a chemical business on a day-to-day 
basis. As someone responsible for meeting the payroll, she may 
have the most valuable experience of all. We look forward to 
all of your testimony today as we collectively work together in 
the days ahead to get the project done.
    Last year we spent lots of hours, countless hours, trying 
to develop bipartisan legislation only to find that we put more 
issues on the table than we could resolve. Drawing on that 
lesson, this year's bill is a little bit more focused.
    First, it kicks the starting process of selecting chemicals 
already in commerce for risk evaluation and, if necessary, 
rulemaking to mitigate that risk. From among chemicals already 
on the market, EPA selects ones that it sees as potentially 
posing an unreasonable risk. Second, the bill also lets the 
market select chemicals for risk evaluation by allowing a 
manufacturer to ask for and pay for an evaluation. In either 
case, the risk evaluation must stand up to rigorous scientific 
standards set out in the legislation. If EPA does identify an 
unreasonable risk, it must turn immediately to drafting a rule 
tailored to mitigate that risk. These rules will focus on the 
danger at hand. Once written, those rules will be shared by all 
Americans. Rooted in science, the EPA decisions will obviate 
State-by-State attempts to regulate interstate markets, and 
everyone from moms in Michigan to consumers around the world 
will have the confidence that a chemical cleared by EPA won't 
harm them or their families. So let's continue the bipartisan 
momentum and get this legislation through the committee and the 
full House. This is the year for meaningful reform.
    I again want to particularly thank Mr. Shimkus for his 
strong work to get a bill to the plate where we can finally get 
some runs scored. Yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today is an important milestone as we work to bring our 
chemical safety laws into the 21st century. I thank Mr. Shimkus 
for his bipartisan member-to-member work bringing this 
legislation before the subcommittee. I also commend the Ranking 
Member of the full committee Frank Pallone for collaborating 
across the aisle to develop a proposal we can all embrace.
    We've heard from a diverse cross-section of stakeholders 
that TSCA needs modernizing. When first enacted nearly four 
decades ago, the structure was a bit of an experiment. When our 
predecessors on this committee designed TSCA, they were clearly 
attempting to reconcile diverse points of view within Congress 
and in the American public.
    Our challenge today is the same, but now we have the 
benefit of experience. Our witnesses include the 
administration's main point person on chemical regulation, 
industry experts with global regulatory experience, and a 
person who manages a chemical business on a day-to-day basis. 
As someone responsible for meeting the payroll, she may have 
the most valuable experience of all. We look forward to all of 
your testimony today and to working collaboratively in the days 
to come in getting this project done.
    Last year we spent countless hours trying to develop 
bipartisan legislation only to find that we put more issues on 
the table than we could resolve. Drawing on that lesson, this 
year's bill is more focused.
    First, it kick starts the process of selecting chemicals 
already in commerce for risk evaluation and, if necessary, 
rulemaking to mitigate that risk. From among chemicals already 
on the market, EPA selects ones it sees as potentially posing 
an unreasonable risk. Second, the bill also lets the market 
select chemicals for risk evaluation by allowing a manufacturer 
to ask for (and pay for) an evaluation.
    In either case, the risk evaluation must stand up to 
rigorous scientific standards set out in the legislation. If 
EPA does identify an unreasonable risk, it must turn 
immediately to drafting a rule tailored to mitigate that risk. 
These rules will focus on the danger at hand.
    Once written, those rules will be shared by all Americans. 
Rooted in science, the EPA decisions will obviate State-by-
State attempts to regulate interstate markets. And everyone 
from moms in Michigan to consumers around the world will have 
the confidence that a chemical cleared by EPA won't harm them 
or their families.
    Let's continue the bipartisan momentum and get this 
legislation through the committee and the full House. This is 
the year for meaningful reform.

    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I am pleased to be here today to continue this 
subcommittee's important work to reform the Toxic Substances 
Control Act. Chairman Shimkus' new discussion draft, the TSCA 
Modernization Act of 2015, is a thoughtful and innovative 
approach that has the potential to move chemical regulation 
forward. The chairman and the majority staff have worked 
closely with Democratic members, including our ranking member, 
Mr. Tonko, to improve this draft, and I am happy to say that 
our work is ongoing. I look forward to hearing from EPA, 
affected industries, and environmental stakeholders this 
morning to plot a course forward and begin to strengthen this 
draft.
    Improving the Federal Government's ability to identify and 
manage risks from the chemicals that are manufactured and 
processed in this country is critical. For 6 years now, there 
has been widespread agreement among industry, labor, and 
nongovernmental organizations that TSCA needs to be reformed.
    In 2009, the EPA Administrator said that TSCA had proven to 
be ``an inadequate tool for providing the protection against 
chemical risks that the public rightfully expects.'' The 
American Chemical--or I should say, the American Chemistry 
Council said it wanted to work with stakeholders, Congress, and 
the administration to make reform a reality. And a coalition of 
public interest groups said that by updating TSCA, Congress can 
create the foundation for a sound and comprehensive chemicals 
policy that protects public health and the environment while 
restoring the luster of safety to U.S. goods in the world 
market.
    At that time, stakeholders and policymakers pursued a 
vision of a fully reformed TSCA, ensuring that no chemical 
would go on the market without being found to be safe. All 
chemicals in commerce would be subject to minimum testing, and 
aggressive regulation would ensure to the American public a 
reasonable certainty of no harm from the chemicals they are 
unwittingly exposed to every day. Six years later, that vision 
is still my goal but the risks from toxic chemicals in our 
environment and the products we use every day are serious and 
pressing, and progress toward that vision has been elusive.
    This new discussion draft does not attempt to realize the 
goal of a fully reformed TSCA with assurances that all 
chemicals in commerce are safe but it will give EPA tools to 
reduce risk now, in a package that I think has the potential to 
become law, and it will give consumers the ability to choose 
chemicals and products that have been reviewed for safety 
against a purely risk-based standard.
    Under this draft, EPA would have the ability to require 
testing through orders, rather than just rulemaking. That is an 
important step forward, although it won't fix all of the 
problems in Section 4 of the existing law. The draft would also 
ensure that EPA's determinations of unreasonable risk under 
section 6 of current law will be made without consideration of 
costs and with explicit protections for vulnerable populations. 
EPA would then be able to move forward with risk management 
without the paralyzing requirement to select the least 
burdensome option. These too are essential steps forward, 
although issues in section 6 still remain.
    Additionally, the draft would remove outdated limits on 
user fees to provide more resources for EPA's activities under 
TSCA, although it could do more to ensure that EPA actually 
receives those funds. The draft also would direct EPA to update 
the TSCA inventory, providing better information to consumers 
and policymakers on the universe of chemicals in commerce in 
the United States, and the draft would require substantiation 
of CBI claims in the future, preventing abuse of CBI claims and 
ensuring greater transparency. These are all positive changes 
that would empower EPA to offer greater protections for human 
health and the environment. Importantly, the draft also avoids 
some of the significant concerns that have been raised about 
past proposals, such as limits on the ability of EPA to 
regulate articles and limits on the ability of States to be 
partners in enforcement.
    This bill reflects robust bipartisan outreach, which I hope 
to continue in the coming weeks. Mr. Chairman, you deserve 
credit for a strong process so far, and a strong product. Some 
important issues remain to be worked out, such as setting 
yearly targets for EPA initiated risk evaluations, ensuring 
that private rights of action are protected, and targeting 
risks from the worst of the worst chemicals, PBTs. So I hope we 
can come together to strengthen this proposal and produce a 
law.
    I welcome the testimony from today's witnesses, which will 
point the way for further work on a bipartisan basis. We have 
all, Mr. Shimkus, myself, Mr. Tonko and of course Mr. Upton, we 
really consider this a goal that can be accomplished on a 
bipartisan basis, and I just want to thank everyone for all 
their hard work, particularly over the last 2 weeks. You know, 
we had a recess for 2 weeks but the staff were certainly not in 
recess. They were working very hard on this bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I am pleased to be here today to continue this 
subcommittee's important work to reform the Toxic Substances 
Control Act. Chairman Shimkus' new discussion draft, the TSCA 
Modernization Act of 2015, is a thoughtful and innovative 
approach that has the potential to move chemical regulation 
forward. The chairman and the majority staff have worked 
closely with Democratic members and staff to improve this 
draft, and I am happy to say that our work is ongoing.
    I look forward to hearing from EPA, affected industries, 
and environmental stakeholders this morning to plot a course 
forward and begin to strengthen this draft.
    Improving the Federal Government's ability to identify and 
manage risks from the chemicals manufactured and processed in 
this country is critical. For 6 years now, there has been 
widespread agreement among industry, labor, and nongovernmental 
organizations that TSCA needs to be reformed.
    In 2009, the EPA Administrator said that TSCA had proven to 
be ``an inadequate tool for providing the protection against 
chemical risks that the public rightfully expects.''
    The American Chemistry Council said it wanted to work with 
``stakeholders, Congress, and the administration to make reform 
a reality.''
    And a coalition of public interest groups said that ``By 
updating TSCA, Congress can create the foundation for a sound 
and comprehensive chemicals policy that protects public health 
and the environment, while restoring the luster of safety to 
U.S. goods in the world market.''
    At that time, stakeholders and policymakers pursued a 
vision of a fully reformed TSCA, ensuring that no chemical 
would go on the market without being found to be safe. All 
chemicals in commerce would be subject to minimum testing, and 
aggressive regulation would ensure to the American public a 
reasonable certainty of no harm from the chemicals they are 
unwittingly exposed to every day.
    Six years later, that vision is still my goal. But the 
risks from toxic chemicals in our environment and the products 
we use every day are serious and pressing, and progress toward 
that vision has been elusive.
    This new discussion draft does not attempt to realize the 
goal of a fully reformed TSCA with assurances that all 
chemicals in commerce are safe. But it will give EPA tools to 
reduce risk now, in a package that I think has the potential to 
become law. And it will give consumers the ability to choose 
chemicals and products that have been reviewed for safety 
against a purely risk-based standard.
    Under this draft, EPA would have the ability to require 
testing through orders, rather than just rulemaking. That is an 
important step forward, although it won't fix all of the 
problems in Section 4 of the existing law.
    The draft would also ensure that EPA's determinations of 
unreasonable risk under Section 6 of current law will be made 
without consideration of costs and with explicit protections 
for vulnerable populations. EPA would then be able to move 
forward with risk management without the paralyzing requirement 
to select the least burdensome option. These too are essential 
steps forward, although issues in Section 6 still remain.
    Additionally, the draft would remove outdated limits on 
user fees to provide more resources for EPA's activities under 
TSCA, although it could do more to ensure that EPA actually 
receives those funds.
    The draft also would direct EPA to update the TSCA 
inventory, providing better information to consumers and policy 
makers on the universe of chemicals in commerce in the United 
States.
    And the draft would require substantiation of CBI claims in 
the future, preventing abuse of CBI claims and ensuring greater 
transparency.
    These are all positive changes that would empower EPA to 
offer greater protections for human health and the environment.
    Importantly, the draft also avoids some of the significant 
concerns that have been raised about past proposals, such as 
limits on the ability of EPA to regulate articles and limits on 
the ability of States to be partners in enforcement.
    This bill reflects robust bipartisan outreach, which I hope 
to continue in the coming weeks. Mr. Chairman, you deserve 
credit for a strong process so far, and a strong product.
    Some important issues remain to be worked out, such as 
setting yearly targets for EPA initiated risk evaluations, 
ensuring that private rights of action are protected, and 
targeting risks from the worst of the worst chemicals, PBTs.
    I hope we can come together to strengthen this proposal and 
produce a law. I welcome the testimony from today's witnesses, 
which will point the way for further work.
    Thank you.

    Mr. Shimkus. Thank you. I also want to thank you for your 
personal involvement, and we were working. There was a 
conference call for about an hour, and I think you were on the 
road somewhere and I was on the road somewhere, and staff was 
here, and it was a good start, so people were working hard, and 
I appreciate it.
    Now I would like to recognize 5 minutes to start the 
questions, and Mr. Jones, how many chemicals already on the 
market is EPA currently assessing on a yearly basis? And I 
think check the microphone.
    Mr. Jones. I am sorry.
    Mr. Shimkus. That is all right.
    Mr. Jones. Thank you. We identified about 80 chemicals 
several years ago for assessment. We have assessed final 
assessments for five of them, and we have about 20 under 
evaluation right now, so it is hard, since we are so early in 
the early days of attempting to evaluate existing chemicals, it 
is hard to right now estimate exactly how many per year we are 
doing. Somewhere in the range between three and eight I would 
say would be an accurate number.
    Mr. Shimkus. To evaluate, let's say, 20 chemicals per year, 
how much many and staff would you need? Do you have----
    Mr. Jones. I would think we would need at least twice the 
existing chemical resources we have right now to do 20 a year.
    Mr. Shimkus. Would the discussion draft, particularly the 
section--you kind of highlighted part of this in your 
testimony--requiring manufacturers to pay all costs related to 
the requested reviews all you, the EPA, to have more chemicals 
evaluated?
    Mr. Jones. Yes. One of the tricks that we have observed in 
the way the bill is drafted is that those resources actually 
don't come to EPA, and so they go to the Treasury, and so we 
are limited by the appropriated resources that we have, so it 
doesn't really expand our capacity.
    Mr. Shimkus. Yes. Is there--and that is why we have the 
hearing and stuff because--I am being whispered in my ear that 
you are right, so we obviously--the intent is for--if there are 
user fees, the whole intent is for you to be able to get access 
to it so you can have the ability. And so if there are ways 
that you get your smart people involved and we get our smart 
people involved, maybe there is--I don't know what we can do 
but we need to make sure that that happens. I think that is the 
intent--what is that, Mr. Chairman? I know I am not the smart 
guy.
    Does the discussion draft improve the agency's ability to 
require the submission of hazard and exposure data by 
authorizing the EPA to obtain it by rule, consent agreement, or 
by issuing an order?
    Mr. Jones. Yes, it does.
    Mr. Shimkus. Does the discussion draft allow EPA to select 
and do risk evaluations on chemicals whose exposures and 
hazards have the potential to be high enough to create an 
unreasonable risk?
    Mr. Jones. Well, it is interesting because the language 
creates an additional step that we don't have today and that we 
have to--that is why I refer to it as the potential catch-22. 
We actually have to make a finding before we can initiate a 
review, and that finding is somewhat related to risk, even 
though the whole point of a risk evaluation is to determine the 
risk. So it creates somewhat of a barrier actually to 
initiating a risk evaluation.
    Mr. Shimkus. And obviously the intent of the legislation is 
to be, as was stated in some of the opening statements, a more 
slimmed-down, more efficient, more simplistic process of 
getting from A to B to C to judgment ruling, so we want to make 
sure we have that, and any help you can provide in addressing 
that, we would be--because look at schematics of current law, 
and you look at schematics of other possible laws, they are 
much more complex, and we would like to--our intent is not to 
be--our intent is just to get the job done.
    Mr. Jones. I think that could be achieved.
    Mr. Shimkus. The discussion draft excludes cost 
considerations when EPA performs risk evaluations, saving that 
issue for when and if a risk-management rule is written. Do you 
agree that the risk evaluation should focus on hazard and 
exposure?
    Mr. Jones. Yes.
    Mr. Shimkus. You testified that the discussion draft is 
ambiguous on how EPA is to incorporate cost and other factors 
into a risk-management rule under section 6A. Can you explain 
why you said that?
    Mr. Jones. Thank you. That is probably one of the most 
important observations that we have around the discussion 
draft. So the existing standard of unreasonable risk has been 
interpreted by courts to be a risk-benefit balancing where the 
Agency has actually got to demonstrate that the health benefits 
of the rule literally outweigh the costs imposed by the rule. 
It is not clear whether or not that interpretation that exists 
right now would be changed at all. There are some parts of the 
draft that make it appear that actually cost shouldn't come 
into consideration in determining the level of protection 
achieved, but that would conflict with the cost-benefit 
balancing that previous courts have determined, and then there 
is the cost-effectiveness language, and so our observation is, 
it is not clear if this discussion draft is maintaining the 
existing cost-benefit balancing, if it is attempting to exclude 
costs completely from the risk management, or if it wants costs 
considered but in some general way without being explicit. So 
it is a clarity issue from our perspective.
    Mr. Shimkus. Thank you, and my time is expired, but I think 
you have raised an issue that what is the--you have courts--
decisions courts have rendered and then simplistically changing 
a law, so my guess is, the courts would then have to render 
judgment under new statutes versus old statutes.
    So having said that, I will recognize the ranking member, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and again, much exchange 
here has cited the hard work done over the last couple of 
weeks, so allow me to further compliment and thank the staff 
for their devotion to this effort along with my colleagues.
    We need TSCA reform certainly because under current law, 
the American public is exposed to industrial chemicals without 
that sufficient bit of safeguard to protect public health. So 
tens of thousands of chemicals in commerce have never been 
tested for safety, and EPA does not currently have the 
necessary authority or resources to tackle this backlog.
    So Mr. Jones, what is EPA currently doing to address the 
highest-priority chemicals under TSCA?
    Mr. Jones. Thank you, Congressman Tonko. So we identified--
we evaluated the 1,200 or so chemicals with known hazard, and 
we compared them against criteria that were related to severity 
of hazard as well as the potential for exposure, and from that 
priority-setting process, we have identified a little over 80 
chemicals that we think are the most important to assess first, 
and we have now begun to assess those chemicals.
    Mr. Tonko. And then would this draft as it currently stands 
enable that work plan?
    Mr. Jones. It sets a little bit of a higher bar than the 
priority process that we did in making a judgment that there is 
actually the potential for the exposure to exceed the hazard, 
which we did not do in our priority----
    Mr. Tonko. Any clarification that we need to have in the 
language that we are proposing?
    Mr. Jones. I think we don't want to create a potential 
unmanageable bar, I think if that might be useful.
    Mr. Tonko. OK. The last thing we should do in TSCA 
legislation is make it harder for EPA to act against the worst 
chemicals. What changes could we make to ensure that the 
chemicals EPA thinks are the highest priority get reviewed and 
addressed?
    Mr. Jones. Well, as I mentioned, having a requirement that 
we make a finding that the exposure may exceed the risk before 
we have actually done the risk assessment is I think an 
unnecessary requirement up front. And then as I mentioned 
earlier, I think it is important that we all have a clear 
understanding of what the actual risk-management standard is, 
and I don't think it is clear right now what that standard is, 
which opens the potential for there to be a lot of litigation 
after decisions are made.
    Mr. Tonko. And adding a minimum number for EPA is a 
beneficial thing when it comes to initiating reviews?
    Mr. Jones. If the Congress wants a certain pace to be 
achieved, and my experience is that being clear about what your 
expectations are about how quickly the Agency acts is pretty 
important.
    Mr. Tonko. Let me focus on the role of cost considerations 
that the Chair was quizzing you about, and using those costs in 
the effort to assess and manage risks.
    This bill includes, as he indicated, explicit language to 
indicate EPA's risk evaluation cannot take cost into 
consideration. The language is intended to ensure that EPA's 
determination of whether or not a chemical presents an 
unreasonable risk does not include cost considerations but cost 
analyses are never part of that risk. They are, however, or 
should be included in an analysis of the options available to 
reduce identified risks for risk management. So are there--and 
again, I heard the give and take, the bantering that you and 
the Chair had, but are there suggested changes that you can 
share that would make that effort more clear?
    Mr. Jones. Yes, and this goes back to the risk-management 
standard Congress is trying to put into place, and the 
administration believes the costs are an important 
consideration in risk management, which is different from 
saying that the risk-management standard should be a risk-
benefit balancing, as I have testified before. In the chemicals 
arena, that is a very challenging thing to do because the risks 
that we are looking at are often not quantifiable but the costs 
almost always are, and what we got out of the Corrosion Proof 
case was a finding that the Agency had to numerically determine 
that those benefits literally numerically were larger than the 
costs, which creates--you end up with a cost-biased standard, 
which has been one of the problems that we have had. So being 
clear about whether the Congress is looking for a cost-benefit 
balancing or you want a standard that requires the 
consideration of costs, which may not sound like it is a lot 
different but actually in reality it is quite different, would 
be very useful.
    Mr. Tonko. Well, I think any kind of, you know, suggested 
changes would be very helpful for the subcommittee as we move 
forward, and I appreciate your input here today. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the vice chair, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Mr. Jones, thank you 
for being here today and shedding some light on a very 
important subject for us, and we look forward to working 
together on both sides of the aisle and with you on coming up 
with a solution that works, and I appreciate your input on the 
discussion draft today.
    You testified that priority chemicals should be assessed 
and acted upon in a timely manner if the chemical poses a risk. 
For your work plan chemicals, have you determined that some 
show an unreasonable risk?
    Mr. Jones. So we have demonstrated with the five 
assessments we have completed that three of them demonstrate 
risk. Two of them we said were not significant risks. But 
unreasonable risk under current TSCA has been interpreted by 
courts to mean that the health benefits outweigh the costs, and 
so what we are doing right now for the three chemicals where we 
have demonstrated significant risks were evaluating the health 
benefits that we have identified and comparing them to the cost 
of potential regulation and ultimately we need to come up with 
a risk management that balances the health benefits with the 
costs. So that is the part of the process that we are in right 
now.
    Mr. Harper. So the three of the five that you are moving 
forward on, you haven't completed that process, correct?
    Mr. Jones. That is correct. We are in that process.
    Mr. Harper. So what is the status of the risk-management 
rules on those particular three chemicals?
    Mr. Jones. So we are right now--we have articulated the 
health benefits, the risk, and we are right now evaluating the 
cost of potential regulation, which also involves looking at 
evaluating the risks and the benefits of the alternatives and 
determining whether or not we have figured out the least 
burdensome way to adequately protect against the risk.
    Mr. Harper. You know, when you have those five that you 
were looking at, ruling two of those, did you start the process 
on all five at the same time?
    Mr. Jones. Yes, we did.
    Mr. Harper. And are they supposed to proceed at the same 
pace, or I assume each one can be at a different level, but are 
you proceeding--are the three that you are looking at, are they 
at the same spot in the process?
    Mr. Jones. They are actually, although that is a little bit 
by happenstance because sometimes you run into a difficult 
issue and it may take a little longer to resolve, but the three 
that we are looking at, whether or not there is unreasonable 
risk, they are moving at pretty much the same pace.
    Mr. Harper. Now, you said there are 80 that have been 
identified.
    Mr. Jones. That is correct.
    Mr. Harper. And how many--who determines which ones are 
looked at next and assessed?
    Mr. Jones. That would be me.
    Mr. Harper. OK.
    Mr. Jones. We actually had a public process where we 
identified factors that we wanted to look at. They were factors 
like carcinogenicity, reproductive toxicity, persistence 
bioaccumulation, and we also wanted to make sure there was 
exposure so that we weren't looking at potentially hazardous 
chemicals for which nobody was being exposed. We had public 
participation around that at some workshops, and then we 
finalized the criteria, and then we evaluated about 1,200 
chemicals against the criteria that we developed, and these are 
the ones that came out on top.
    Mr. Harper. So how many assessments do you believe will be 
completed this calendar year?
    Mr. Jones. That is a tricky one because we are taking on 
some--there are at least three that will be above the five that 
we have done that is very clear will be completed. We are also 
looking at some of the most challenging compounds, which are 
flame retardants, and we are looking at several dozen of those, 
and they are quite complicated, so it is hard for me at this 
point to predict how many of the flame-retardant assessments we 
will complete.
    Mr. Harper. Yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    The testimony we hear today will be essential as we work to 
move this draft forward, and I know we have heard already today 
and we will continue to hear from the second panel that there 
are a number of changes needed to the draft, and I appreciate 
my colleague, Mr. Tonko, for highlighting some of those 
changes. I would like to focus briefly on some of the things I 
think this draft gets right, and if you can to just answer yes 
or no, but I am not going to restrict you completely. I just 
want to get through it.
    First, I would like to highlight some of the problems in 
current law that I think this draft addresses. So Mr. Jones, 
does this draft remove the least-burdensome language that has 
been an obstacle to EPA action under section 6?
    Mr. Jones. Yes.
    Mr. Pallone. Does the draft remove the statutory cap on 
user fees in existing law?
    Mr. Jones. Yes.
    Mr. Pallone. Is it your view that the draft needs to do 
more to ensure that EPA actually receives adequate resources to 
carry out this program?
    Mr. Jones. Yes, and I would just say it is because the 
draft as written right now does not allow the fees to come to 
EPA.
    Mr. Pallone. OK. Would you have any recommendation in that 
regard?
    Mr. Jones. We could work with the committee to figure out 
how to write that. We have done this before.
    Mr. Pallone. OK. Well, I just hope that we can make changes 
to ensure that EPA has the resources as we move forward. 
Otherwise, you know, what goes is it?
    Turning back to the draft, does this draft require 
justification of future CBI claims, unlike current law?
    Mr. Jones. Yes.
    Mr. Pallone. And does this draft provide explicit 
protections to vulnerable populations and therefore improve 
current law?
    Mr. Jones. It is a little ambiguous. It precludes EPA from 
determining a chemical meets the safety standard unless we have 
evaluated vulnerable populations but doesn't speak to scenarios 
where we find that the safety standard is not met.
    Mr. Pallone. OK. I think these are all very important 
points, and I recognize that the draft is not as comprehensive 
as some past proposals, but I think it would move the ball 
forward on chemical regulation and improve current law.
    I also wanted to recognize again the subcommittee chairman, 
Mr. Shimkus, because he has tried to avoid some of the major 
issues that have stalled proposals in the Senate. So let me ask 
you about some of that.
    Mr. Jones, I know that you raised concerns about article 
provisions in the Senate bill. Are those concerns addressed 
here?
    Mr. Jones. Yes, they are.
    Mr. Pallone. OK. And you also raised some concerns about 
the ability of States to co-enforce requirements of EPA TSCA 
rules and to regulate chemicals while EPA is evaluating them. 
Are those concerns addressed here?
    Mr. Jones. Yes.
    Mr. Pallone. OK. I think this draft is a good starting 
point. Obviously we still have a lot of work to do, but we have 
had a very good process so far, and I look forward to 
continuing to work with the chairman and Mr. Tonko. And so at 
this point, I can't believe I am actually yielding back, but I 
accomplished everything I wanted to accomplish.
    Mr. Jones. It was my short answers.
    Mr. Pallone. Thank you.
    Mr. Shimkus. The gentleman yields back his time, and I hope 
those answers are helpful to you and I hope they are not 
harmful to me.
    So with that, I would like to yield 5 minutes to the 
gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thanks very much for holding this very important hearing today, 
and Administrator, thanks for being with us today.
    Last year when you testified before the subcommittee, in 
April, in fact, just about a year ago, I discussed with you the 
TSCA inventory. You stated how the actual number of chemicals 
on the TSCA inventory somewhere between 7,000 and 84,000, the 
7,000 number being the rough number of chemicals produced in 
large quantities and overall the 84,000 representing those 
chemicals that have been on the inventory and how it could be 
potentially misleading. Let me ask, do you believe that the 
discussion draft before us would give a more accurate picture 
of the chemicals actually in commerce on any given date?
    Mr. Jones. It would, yes.
    Mr. Latta. OK. And also, how effective do you believe the 
least-burdensome provision has been under the current law?
    Mr. Jones. I think it has created a barrier under the 
current law.
    Mr. Latta. OK. Could you explain that, how it has created a 
barrier?
    Mr. Jones. So for example, right now there are three 
chemicals that we have identified as posing significant risk, 
and before we can move forward regulating them, we have to 
evaluate about eight different risk-management scenarios that 
are identified in the statute and show how for each one of them 
we are selecting the one that poses the least burden on society 
at large, so we have to analyze each of these potential risk-
management options and then just pick the least burdensome one, 
which as a general matter I don't have a problem with but it is 
not always necessary to evaluate everything to know which one 
is going to be the least burdensome ultimately and we are 
required to do that under the statute.
    Mr. Latta. Let me ask, how much time does that add to the 
process?
    Mr. Jones. Well, you know, we are doing it right now for 
the first time in 30 years, and so I will have a clearer answer 
when we have actually finished that analysis, and whether or 
not a court ultimately upholds did we do enough analysis for 
each of the risk-management options that are in the statute.
    Mr. Latta. Let me ask about under the proposed draft bill 
before us is on the deadlines, and you know, the deadlines we 
are looking at that the administration will conduct and publish 
risk evaluation under the subsection for chemical substance not 
later than 3 years after the date on the Administrator makes a 
finding, 180 days after the date on which the manufacturer 
requests the risk evaluation, and it also goes on to state that 
if the Administrator determines that additional information is 
necessary to make a risk evaluation, a determination under the 
subsection, there is--it can be extended a date of 90 days 
after receipt of additional information or 2 years after the 
original deadline, and with that, you know, where do you see 
that--do you see that would be a good time frame?
    Mr. Jones. You know, I think deadlines are really important 
for the Government to have, but they are pretty short, and the 
only one that I think that the Agency has some potential for 
meeting is the initial assessment if EPA initiates the review, 
3 years--our experience so far is that between 2 and 3 years, 
so having the deadline be the latter end of it seems 
appropriate.
    Us turning an assessment around in 6 months from an 
industry submission I think is unrealistically optimistic. I 
would love to be able to do proposed rules within 6 months of a 
safety evaluation. My experience is that that is also just 
unrealistic from past experience.
    Mr. Latta. Well, you know, with the 3 years, you know, how 
long on general--you are saying 2 to 3 but how many different 
chemicals are out there that have taken more than 3 years for 
you to do an evaluation on?
    Mr. Jones. So it is possible that something that is hugely 
challenging from an exposure potential or hugely challenging 
from understanding the hazard that it would take longer than 3 
years, I would expect that as a general matter, 3 years is a 
deadline that could be achieved for the vast majority of the 
chemicals we would evaluate.
    Mr. Latta. Well, thank you very much, and----
    Mr. Shimkus. Will the gentleman yield the last 44 seconds?
    Mr. Latta. I yield back.
    Mr. Shimkus. Under the industry applied evaluation, you 
will have more data in that process than when you just pick a 
chemical out of the air and say we have to do this one as our 
requirement under current law. Is that correct?
    Mr. Jones. It is not clear that that would be the case. I 
assume that that was some of the assumptions that were built 
into that 6-month deadline. It is not obvious the way it is 
drafted that we would have more. The other----
    Mr. Shimkus. Well, if the industry is willing to have you 
expedite this, my guess is that there would be, you know, a 
working relationship that--but we will work to clear that up. 
My assumption would be, they are going to give you what they 
have to try to get an expedited--I mean, that is the whole 
benefit of going through this process is coming to a decision.
    Mr. Jones. Yes. The draft is written that all they have to 
do is request it, so they don't have to actually give us 
anything.
    Mr. Shimkus. OK. Thank you. I thank my colleague. The Chair 
now recognizes the gentleman from Oregon, Mr. Schrader, for 5 
minutes.
    Mr. Schrader. Thank you, Mr. Chairman. I appreciate it.
    How does the Agency currently and then under your 
interpretation of the new discussion draft balance individual 
risk and responsibility versus, you know, absolute risk, if you 
will, posed by certain chemicals?
    Mr. Jones. That is a good question, Congressman. Right now 
we are looking at a compound that is used as a paint stripper, 
and it has actually resulted in deaths across the country over 
the last 15 years, and so arguably--and it results in deaths 
because people sometimes use it in an enclosed space, and so if 
you--it is theoretically possible that we could mitigate that 
risk by a labeling restriction, although when you look there 
actually is a labeling restriction right now although the fine 
print is quite fine, and so you try to struggle with the 
effectiveness of giving people information to protect 
themselves versus what may be the reality is to whether or not 
people avail themselves of that, and so it is something that we 
right now are struggling with, with a chemical that we have 
made a priority compound because, you know, individuals do have 
some responsibility with respect to protecting themselves, but 
at the same time, if past is prologue and giving information 
may not be effective, we think we have the ability to protect 
people from themselves.
    Mr. Schrader. I think one of the struggles this committee 
is going to have and the Congress writ large is balancing that 
personal responsibility. If people are allergic to certain 
things and most people are not allergic to, does that make that 
a toxic substance generally speaking. So I think we are going 
to have a lot of work to do to find out what that appropriate 
balance is. This is still the United States of America and 
people do bear personal responsibility for their own health and 
well-being, and labeling, albeit small or large, hopefully 
adequately, demonstrating what potential harm it may cause to 
certain subpopulation is important but the real world is 
anything in excess is probably toxic, in popular terms, 
carcinogenic. Everything is carcinogenic these days. I think we 
have to be thoughtful and I would hop the EPA would balance 
their rulemaking with whatever legislation we have going 
forward.
    I am interested in the cost-effectiveness discussion. You 
are interested in apparently more leeway than is now granted 
under this legislation. I would probably be against that. My 
concern is that costs should be taken into account. We have a 
Superfund site in my State where EPA's interpretation has 
gotten to where if one individual sort of maybe could have 
ingested a certain amount of fish on a daily basis, way in 
excess of what any person would do, even tribal members, that 
at a level that is way below the current toxicity standards, 
that that would pose a significant risk and needs to be 
mitigated by extremely expensive alternatives, and the judgment 
I have seen so far from EPA is that they want to have a very 
expensive alternative to what could be a simpler solution to I 
think a very exaggerated risk. So I would hope that you would 
take this into account. I hope that the legislation does not 
reduce the cost. In fact, to me it seems pretty clear. You 
know, when you are determining the risk, OK, cost should not 
perhaps be part of the discussion, but certainly, certainly, 
absolutely, 100 percent cost-effectiveness should be part of, a 
major part of, the solution, and I would fight against any 
language that said cost should be just a consideration. That, 
to your point, is a loophole you could drive a truck through at 
the end of the day. So I hope you would be at least open to the 
current legislation as currently written.
    Mr. Jones. We think it is very important for cost to be 
considered in the risk management. It is about how it should be 
considered, and as I was saying, right now it is not clear if 
it needs to be considered in a literal balancing of cost and 
benefits, and that we have stated numerous times how 
challenging that is for chemicals where it is always possible 
to estimate cost. It is often not possible to give a numeric 
monetization to the benefit.
    Mr. Schrader. Well, if you can't monetize it that what 
can't be measured should probably be done. I mean, at the end 
of the day, there has to be--everyone is susceptible. There are 
going to be some persons, some individuals, some child, some 
remote genetic configuration of any given individual that is 
going to be at risk with any given chemical or food substance, 
whether it is deemed safe or not, and I think it is extremely 
important not to get wrapped around the axle on having 
completely irrelevant, with all due respect, solutions that are 
not actually benefit to the population writ large.
    As a veterinarian, it is all about epidemiology. You are 
not going to save everybody at the end of the day, and we have 
to understand that, and I think America in this 21st century 
has to become sophisticated enough to understand where is the 
maximum risk exposure.
    With that, I would like to yield the balance of my time to 
the chairman of the committee--or ranking member. Excuse me.
    Mr. Shimkus. Yes, you don't want to give it to me--no, you 
might want to give it to me.
    Mr. Tonko. Thank you. I thank the gentleman for yielding.
    I would like to turn briefly to a concern I have that the 
draft is too specific about how the Agency should conduct 
science. Agency decisions must be transparent including those 
about science, but in my opinion, these are decisions best left 
to technical experts. This draft includes requirements that EPA 
act based on a specific definition of the weight of the 
scientific evidence and requires EPA to consider a lengthy list 
of factors including sponsor organizations, uncertainty and 
more.
    So Mr. Jones, when these scientific requirements are 
included in the statute, does that open EPA's use of science up 
to litigation?
    Mr. Jones. So any requirement that you have to do, you then 
either--if you don't do it, you are open to litigation. I think 
that the science requirement that most troubles us is the 
consideration of a threshold effect, which is something that we 
do right now, but it is certainly possible that in 10, 15, or 
20 years, it is not even part of the scientific, you know, 
lexicon. And so boxing us into things that may become obsolete 
in the future scientifically are the kinds of things we would 
like to generally avoid.
    Mr. Tonko. Thank you, and I share those concerns, and I 
yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Administrator Jones, about a year ago, you testified before 
this committee on TSCA reform. You may remember at that 
meeting, I expressed my concern to you that TSCA reporting 
requirements seemed to incentivize manufacturers, for example, 
in the electronics industry, to landfill byproducts instead of 
recycling them, even when those byproducts are rich in 
recyclable metals and other valuable materials--copper, for 
example. In other words, we are making it more cost-effective 
for manufacturers to put that stuff in the dirt than to recycle 
it, save money, create jobs, and be more environmentally 
conscious.
    You may also remember that last October I sent 
Administrator McCarthy a letter asking the EPA to complete its 
analysis of data collected during the 2012 chemical data 
reporting, or the CDR cycle, with the idea that such an 
analysis would help EPA reassess the need for CDR information 
in future reporting cycles. In December I received a response 
from Administrator McCarthy that the analysis would be 
completed by early 2015. It is now April, and no analysis has 
been finalized, and while the EPA has had talks with my staff, 
and I know that there has been some exchange of information 
with industry, it has not provided the electronics industry nor 
the public with any new information for some time now. So 
because it appears that this analysis is ongoing, I remain 
hopeful that the EPA still has the opportunity to safely 
incentivize the recycling of byproducts and render any other 
options to solve this problem unnecessary.
    But the first step must be the release of the analysis of 
2012 CDR byproducts. Can you tell me when that data will be 
released?
    Mr. Jones. Thanks, Congressman, and thank you for raising 
this issue to our attention. We have spent a fair amount of 
time evaluating the issue that you brought to our attention. We 
have begun to communicate with your staff as well as the 
electronics industry the results of our analysis. I would be 
reluctant to give a date on the release of the analysis before 
checking with my staff, but we are very close to being able to 
give an answer to the question that you raised.
    Mr. Schrader. OK. Administrator McCarthy said early 2015. 
Is that still a projection? Are looking at the first half of 
this year or----
    Mr. Jones. It is the first half of this year.
    Mr. Schrader. OK. All right. Well, I look forward to 
getting that. I appreciate that.
    What is the EPA's cost for doing the analysis that they do? 
Is it pretty consistent, or does the cost vary from chemical to 
chemical?
    Mr. Jones. It is going to vary pretty significantly from 
chemical to chemical.
    Mr. Schrader. OK. Can you give us an example?
    Mr. Jones. Yes. So the first five chemicals that we looked 
at, we project that the regulation for those that we think bear 
consideration of regulation will cost about a million and a 
half dollars, and the analysis will have been a million 
dollars. That applies to three of them, and so the chemicals 
that demonstrated some risk are significantly more expensive to 
do than the two chemicals which did not demonstrate any risk. 
So when you find no risk, it is relatively cheap. There we 
estimated about a million dollars, so actually much of the cost 
is associated with the regulatory requirements of the analysis 
necessary to support a regulation.
    Mr. Schrader. You just said something that maybe I 
misunderstood you. Why would you be considering regulating a 
chemical that provides no risk anyway?
    Mr. Jones. I am sorry. I must have stated it backwards.
    The chemicals that demonstrated risk are the ones that we 
are doing regulatory analysis for to support a potential 
regulation.
    Mr. Schrader. OK. All right.
    The discussion draft gives the EPA to select a chemical 
substance for risk evaluation under TSCA section 6. Would the 
EPA rely on information that is currently available to the 
Agency to make those selections?
    Mr. Jones. That is now we would intend to----
    Mr. Schrader. That is how you put those in the risk 
category?
    Mr. Jones. Yes.
    Mr. Schrader. OK. I think I have only got 34 seconds left, 
and I can't get this last one in. Mr. Chairman, I will yield 
back some of my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. I am sitting in as the ranking member. Mr. Tonko 
had to go, although Paul from New York doesn't really want me 
from Texas doing it.
    Mr. Shimkus. You better take down that placard because you 
might hurt him.
    Mr. Green. Yes, I don't want to get him in trouble.
    Thank you for being here. I particularly want to thank 
Chairman Shimkus and Ranking Member Tonko and our ranking 
member and Chair of the full committee for working on this 
issue. It has been frustrated because it has been a law since 
1976, and I know for the last two terms this subcommittee has 
tried to see how we could deal with it, but it sounds like, you 
know, we will go small and see what we can do and do just 
problem-solving, which I think is a great way to go.
    If enacted, would the TSCA Modernization Act improve EPA's 
ability to make a risk determination and a risk-management plan 
for existing chemicals?
    Mr. Jones. That is an interesting question. For the way it 
is structured right now, because the only things--because the 
way the fees don't come to the Agency for industry-submitted 
requests, it would absolutely make it clearer what we had to do 
and how many. We have to do whatever they submitted to us. But 
because we are not getting the fees, I think it would crowd out 
our ability to initiate any on our own. Now, if there is a 
solution that allows the fees to come to EPA, then I think it 
would clearly allow us to have more pace to existing chemicals 
program.
    Mr. Green. OK. Would the discussion draft retain the 
current TSCA timing of preemption of State and local action?
    Mr. Jones. Basically, yes, it would retain the--it would 
eliminate the--it would basically be similar to what is 
currently required in TSCA, marginally different.
    Mr. Green. Under the discussion draft, would risk 
determination be based solely on health and safety factors 
without consideration of cost?
    Mr. Jones. The risk evaluation would, yes.
    Mr. Green. Currently, the EPA is allowed to disclose 
confidential business information to State and local government 
officials. Is that part of this package?
    Mr. Jones. Currently it is quite difficult to do that but 
under this provision, the provision in the discussion draft, it 
would make it quite straightforward to do that.
    Mr. Green. OK. Will the discussion draft allow EPA to 
disclose the confidential business information to the--well, 
strike that. Under current TSCA, is EPA allowed to disclose CBI 
to a treating doctor or a healthcare professional?
    Mr. Jones. It is quite--that is what I was saying. It is 
quite burdensome for us to do that right now, which is 
something that----
    Mr. Green. Would this discussion draft help with that?
    Mr. Jones. Yes.
    Mr. Green. Would the discussion draft authorize the EPA to 
disclose--well, I take that back again. Under current law, is 
there any limit to the length of time for confidential business 
information claim?
    Mr. Jones. No.
    Mr. Green. Under the discussion draft, would there be any 
time limits?
    Mr. Jones. Yes, 10 years.
    Mr. Green. OK. The discussion draft creates a new term, 
``potentially exposed subpopulations.'' Under the definition 
provided in the discussion draft, would the thousands of 
chemical plants that I have and the people that work there and 
the people that live around it in our district be covered under 
the definition of potentially exposed subpopulations?
    Mr. Jones. It is certainly possible that they would be, 
yes.
    Mr. Green. Now, obviously you want those jobs there but we 
also want to make sure that the products they are producing 
that our country needs are safe as possible. In your testimony, 
you note the discussion draft lacks a sustained source of 
funding for the chemical safety management, which goes back to 
the funding. Would you recommend to our subcommittee the best 
way to address that concern?
    Mr. Jones. I think it is a relatively straightforward fix 
that has the funding that is designated here going to the EPA, 
which right now it would not go to the EPA.
    Mr. Green. And I think that is something we will consider. 
Are there current statutes that provide a sustained source of 
funding that could be used as a model for TSCA reform?
    Mr. Jones. Yes, both the drug law--PDUFA is the acronym--or 
the pesticide law, the Pesticide Registration Improvement Act, 
both have funding mechanisms.
    Mr. Green. You state in your testimony that EPA strongly 
feels that any update to TSCA must provide the agency with the 
ability to make timely decisions and the ability to take action 
to address that risk. Do you believe that the discussion draft 
provides the agency with the needed authority to make those 
timely decisions?
    Mr. Jones. The timeliness is clear. As I said earlier, I 
think that the ambition is quite impressive and perhaps not 
manageable. I think the part that I am struggling is looking 
for more clarity as to exactly what the risk-management 
standard is so we are not fighting in litigation forever about 
what it actually means.
    Mr. Green. And I agree. I would hope when we finish it, we 
give the clarity that you need so there is no question at all. 
In fact, EPA is downstairs in the Energy and Power Subcommittee 
so you all are regular guests here in our committee.
    Mr. Jones. We carpooled over.
    Mr. Green. But any suggestions I know we would all 
appreciate that. And do you believe the discussion draft gives 
the EPA to authority to address the identified risk? If not, 
what changes would we need to ensure the Agency has that 
authority?
    Mr. Jones. Again, that goes back to clarity of what the 
risk-management standard is is important.
    Mr. Green. Thank you, Mr. Chairman. I know I am over time. 
I appreciate it.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
will now look to my colleague from Indiana, Mr. Bucshon. Do you 
waive?
    Mr. Bucshon. I waive.
    Mr. Shimkus. The Chair now recognizes the gentlelady from 
Colorado, Ms. DeGette. It is good to have her back. She was 
very active last Congress, and we are glad to see her here with 
us.
    Ms. DeGette. Thank you very much, Mr. Chairman. I really 
appreciate you having this hearing, but even more so, I 
appreciate the amount you have worked with Mr. Green, myself, 
Mr. Tonko and others on really trying to make progress on this 
path to TSCA reform. It is not easy as we all had been saying. 
If it was easy, it wouldn't have taken us 30 years to fix it.
    And thank you, Assistant Administrator Jones, for coming 
over to give us some thoughts this morning. I want to start by 
looking at EPA's ability to require testing of chemicals under 
the draft. This discussion draft includes an important change 
to EPA's authority under section 4 of TSCA by empowering the 
EPA to require testing through order rather than rulemaking.
    So if you can talk to us about how order authority will 
improve your ability to require testing under section 4, that 
would be great.
    Mr. Jones. Sure. Right now we are required to do a rule if 
we want to compel the generation of health and safety data for 
a chemical, and we are also required to make a finding that we 
have some reason to believe there may be an unreasonable 
adverse effect for such chemicals, so you get into this kind of 
a catch-22. You want the data because you don't know but you 
need to know something before you compel it, and then you have 
to do a rule, and rulemaking is a very long process and so it 
can take many, many years. So an order authority would allow us 
to move much more quickly to require generation of health and 
safety data.
    Ms. DeGette. Do you have any sense about on an average how 
much more quickly that would be?
    Mr. Jones. Well, in our pesticides program, we have order 
authority and have had it for 40 years, and when we find that 
there is data that we need to require, we are able to issue 
orders in matters of months as opposed to 4 or 5 years.
    Ms. DeGette. OK. Now, that change was one that I had sought 
in section 4 but this draft doesn't seem to address the catch-
22 that EPA has long faced, and you talk a little about it. It 
seems that under this draft, the EPA would still have to find 
that a chemical might present an unreasonable risk before they 
were required--before they could require testing, and that is 
what you were just talking about.
    Mr. Jones. So the way we have read the discussion draft, 
Congresswoman, is that to issue an order, we don't need to make 
that finding, so that seems to be addressed. It is in the 
context of to initiate a risk evaluation, we need to have some 
reason to believe the exposure exceeds the hazard.
    Ms. DeGette. And so how do you think the language, or do 
you think the language can be adjusted in this discussion draft 
to reflect that issue?
    Mr. Jones. I think it would be relatively straightforward 
to do that instead of having some reason to believe exposure 
exceeds hazard, have some reason to believe there is exposure, 
have some reason to believe there is hazard.
    Ms. DeGette. OK. So it is the ``exceeds hazard'' that is 
the issue?
    Mr. Jones. Yes, I think so.
    Ms. DeGette. If you could work with us to supplement your 
response to give us some technical assistance on that, that 
would be really helpful. We would appreciate it.
    In addition to granting the EPA order authority to require 
testing, the discussion draft also includes a provision to 
allow manufacturers to request that EPA evaluate their 
chemicals for safety. The discussion draft requires the EPA to 
make a finding on any evaluations requested by companies within 
6 months. Is that going to be enough time to perform a robust 
evaluation of a chemical?
    Mr. Jones. I don't think so, no.
    Ms. DeGette. How long does the evaluation of a chemical 
usually take?
    Mr. Jones. It usually takes a couple of years, and this was 
the conversation the chairman and I were having that the 
discussion draft doesn't require the manufacturers to submit 
all the data necessary to do an evaluation. If it did, it would 
still require a couple of years. And so they could just say I 
want you to evaluate my chemical. The other thing is that when 
there is a controversy around the chemical, it is often the 
case that EPA's interpretation of the data doesn't agree with 
the manufacturer's.
    Ms. DeGette. So do you think there is some language we 
could put together to tighten that up a little bit?
    Mr. Jones. It would seem like it is more about how much 
time the Agency should have to do----
    Ms. DeGette. So maybe, Mr. Chairman, that is something we 
can talk about as we go forward.
    Mr. Shimkus. Would the gentlelady yield?
    Ms. DeGette. I would be happy to.
    Mr. Shimkus. I still think there is this debate about what 
is industry going to provide, and that was the whole part.
    Ms. DeGette. Right.
    Mr. Shimkus. If they are providing a lot of data, then the 
timelines may be legit, so we will visit that.
    Ms. DeGette. OK. Good. All right.
    The last thing is that the discussion draft proposes 
amending section 9 of TSCA to allow the EPA to set fees to help 
defray the costs of additional chemical testing but it doesn't 
flag funds to be used specifically for that purpose. So my 
question is, does the Office of Chemical Safety and Pollution 
Prevention have sufficient funds appropriated to undertake 
additional testing of new chemicals under TSCA?
    Mr. Jones. Not as written in the discussion draft.
    Ms. DeGette. So if we had some kind of a dedicated fund 
rather than just solely relying on appropriations, would that 
be of assistance?
    Mr. Jones. Yes, it would.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentlelady's time is expired. The Chair 
now turns to Mr. Cramer from North Dakota for 5 minutes. Do you 
waive?
    Mr. Cramer. I would yield to Mr. Hudson.
    Mr. Shimkus. The gentleman has yielded to Mr. Hudson, who 
is recognized for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    Thank you for being here today. I appreciate your 
testimony. It has been very informative.
    My first question: TSCA as amended by the discussion draft 
requires that the agency have a need for testing and exposure 
information before it imposes a requirement on manufacturers 
and processors to develop that information. Is that a good 
requirement?
    Mr. Jones. I believe so, yes.
    Mr. Hudson. All right. Last year you asked that each 
chemical evaluation have a deadline for completion. Are the 
deadlines in our bill about right for that?
    Mr. Jones. I rarely say this: They are a little too short.
    Mr. Hudson. Really? Well, what do you think they ought to 
be?
    Mr. Jones. Well, I think that we can complete assessments 
within 3 years. I don't think we can even with industry-
submitted data complete an industry-submitted assessment in 6 
months. As much as I would love to do a rulemaking in 6 months, 
I think we probably need upwards of 2 years to do a rulemaking.
    Mr. Hudson. EPA has authorized some 90 chemicals as TSCA 
work plan chemicals. Does the discussion draft require a change 
to that program?
    Mr. Jones. It requires us to make a finding that is above 
and beyond what we did in the identification of the priority 
chemicals.
    Mr. Hudson. Well, would work plan chemicals likely be 
selected for risk evaluations under the House discussion draft?
    Mr. Jones. They would likely be but, again, we would have 
to do one additional step that we have not done heretofore, 
make a determination that we think it is likely or possible 
that the exposure exceeds the hazard, which we have not done.
    Mr. Hudson. Gotcha. I have got a question as far as fees, 
collection of fees currently. How does the Agency currently 
collect user fees under TSCA?
    Mr. Jones. We only have a few right now for the submission 
of a new chemical under the premanufacturer notification 
program. Those fees don't come to EPA either, so except for 
some small businesses, manufacturers when they submit a new 
chemical to EPA for review submits a fee with that.
    Mr. Hudson. And those go back to the Treasury?
    Mr. Jones. They go back to the Treasury.
    Mr. Hudson. What is your budget breakdown by category for 
individual sections of TSCA?
    Mr. Jones. I would need to get back to you on that but we 
could provide that pretty quickly.
    Mr. Hudson. I would appreciate it if you would do that. 
What is the EPA budget in both funding and FTEs for chemical 
review under section 5 and under section 6 of TSCA?
    Mr. Jones. Again, that would be part of what we would get 
back to you on, overall budget breakdown between existing 
chemicals and new chemicals.
    Mr. Hudson. OK. Well, I would appreciate that information, 
and I thank you.
    Mr. Shimkus. Would the gentleman yield?
    Mr. Hudson. I yield back to the chairman.
    Mr. Shimkus. Just a follow-up. So on new chemicals, you 
have 90 days, and then with the possibility of an additional 90 
days?
    Mr. Jones. Um-hum.
    Mr. Shimkus. And so we are saying on existing chemicals, it 
will take 3 years? That is just part of the date we are having.
    Mr. Jones. Yes.
    Mr. Shimkus. You will have to explain to me why--not now 
but you will have to explain to me why that is, and with that, 
I yield back the time and now, she has been very patient, my 
colleague from California, Ms. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, first of all, for 
holding the hearing, and our witness for your testimony.
    Under current law, TSCA has used an ``unreasonable risk'' 
standard to evaluate the safety of a chemical. This is 
understood to be a cost-benefit standard, which in effect 
requires the Agency to balance the economic value of a chemical 
against the adverse health effects such as cancer, autism. 
Besides posing serious ethical problems, this approach has also 
proven to be unworkable.
    Mr. Jones, what is the impact of this cost-benefit standard 
in the context of TSCA?
    Mr. Jones. Well, as I have mentioned, it is often very 
difficult for certain health outcomes to the way in which we do 
risk assessment to monetize them. Some we are able to. There 
are some carcinogens which we are able to monetize. There are 
some pollutants like particulate matter where we are able to 
monetize. In the case of a chemical that we are looking at 
right now where death is the outcome, we can monetize that. 
There are some outcomes the way our risk assessment is 
designed, we are not able to monetize them, and so our ability 
to say that these benefits literally outweigh these costs is 
challenging. It is not impossible but it creates a challenge 
for us.
    Mrs. Capps. So since 2009, there has been widespread 
agreement that this cost-benefit standard does need to be 
abandoned. This subcommittee has repeatedly received testimony 
that TSCA's current safety standard is failing to protect the 
general public and particularly vulnerable populations. EPA, 
the American Chemistry Council, even oil refineries have all 
stated that cost should not be part of safety determinations 
under TSCA. I welcome the changes in the discussion draft to 
explicitly exclude costs from risk evaluations but I am not 
sure they go far enough.
    So my question, Mr. Jones, is: do you think changes are 
needed in this draft to ensure the safety of chemicals as 
evaluated against a purely health standard?
    Mr. Jones. Well, what I said so far today is that right now 
it is just ambiguous as to what the standard is, and that I 
think is critically important so we don't spend, if this were 
to become law, the next 30 years litigating what the standard 
is. The administration has said that the safety evaluation 
should be risk-based. but the administration has also said that 
cost should be a consideration in the risk management.
    Mrs. Capps. Right. I hope you will work with this committee 
because we intend to, I hope, move forward to ensure the 
language gives effect to that kind of intent.
    Another important component of the safety standard in any 
TSCA proposal is protection for vulnerable populations. 
Vulnerable populations include infants and children, the 
elderly and disabled, workers, and those living near chemical 
facilities. In their 2009 report, Science and Decisions, the 
National Academy of Science recommended that vulnerable 
populations should receive special attention at all stages of 
the risk assessment process.
    Mr. Jones, do you agree that it is important to address 
risks to vulnerable populations when managing chemical risks 
under TSCA?
    Mr. Jones. Yes.
    Mrs. Capps. I am pleased to see this draft includes an 
explicit protection for vulnerable populations blocking EPA 
from finding that a chemical does not present an unreasonable 
risk if the agency finds that the chemical presents an 
unreasonable risk for a vulnerable subpopulation. In other 
words, if a chemical fails to meet the standard for a 
subpopulation, it doesn't meet the standard, period.
    Mr. Jones, do you think that requirement is going to 
provide the protection that we need for vulnerable populations?
    Mr. Jones. It is interesting, Congresswoman Capps. When we 
make the determination that a chemical doesn't pose an 
unreasonable risk, we have to make the finding you described, 
and this just goes back to the earlier comments for when what 
the actual safety standard is when we find that there is risk 
is not clear, and for that reason it is not clear how 
vulnerable populations would be included in that, so when we 
find there is a risk.
    Mrs. Capps. So we need more clarity?
    Mr. Jones. There needs more clarity there.
    Mrs. Capps. Yes. And I appreciate the efforts made in this 
draft to ensure, and I can see now it is important to emphasize 
the word ``draft.'' It probably does need to be changed along 
the way. Costs are left out of safety evaluations and that 
vulnerable populations are protected. This is sort of we are 
this far on it but I hope we can continue to work to improve 
this draft. I applaud the efforts that we have made so far but 
we have a ways to go to make sure that we move chemical 
regulation forward, and I yield back.
    Mr. Shimkus. The gentlelady yields back her time.
    Seeing no other members asking for questions, we do want to 
thank you for, it is obviously not long in congressional time 
but a legislative hearing, and we want to thank the members for 
being very diligent and involved and engaging in your 
responses. We look forward to working with you, and with that, 
we will dismiss you and ask for the second panel to come 
forward.
    Mr. Jones. Thank you.
    Mr. Shimkus. We would like to start. We want to thank the 
second panel for coming and appreciate you sitting through the 
first round. Hopefully a lot of questions will be generated 
based upon the comments. The way I would like to do it is, I 
will just introduce one at a time when their time comes for the 
opening statements, and again, welcome. A lot of them are 
familiar faces that we have seen here numerous times, so 
friends of the committee, I would say.
    First, we would like to welcome Mr. Mike Walls, who is the 
Vice President of Regulatory and Technical Affairs with the 
American Chemistry Council. Your full statement is in the 
record. You have 5 minutes, and you are recognized.

STATEMENTS OF MICHAEL P. WALLS, VICE PRESIDENT, REGULATORY AND 
  TECHNICAL AFFAIRS, AMERICAN CHEMISTRY COUNCIL; DR. BETH D. 
  BOSLEY, PRESIDENT, BORON SPECIALTIES, LLC, ON BEHALF OF THE 
  SOCIETY OF CHEMICAL MANUFACTURERS AND AFFILIATES; JENNIFER 
 THOMAS, SENIOR DIRECTOR, FEDERAL GOVERNMENT AFFAIRS, ALLIANCE 
OF AUTOMOBILE MANUFACTURERS; AND ANDY IGREJAS, DIRECTOR, SAFER 
                  CHEMICALS, HEALTHY FAMILIES

                 STATEMENT OF MICHAEL P. WALLS

    Mr. Walls. Good morning, Mr. Shimkus, Mr. Tonko, and 
members of the----
    Mr. Shimkus. And just if you could pull that a little bit 
closer.
    Mr. Walls. How is that? I don't want to break anybody's 
eardrums.
    Thank you again for the invitation to be here today. I am 
very happy to testify today in support of the bipartisan 
discussion draft.
    ACC strongly supports efforts to reform TSCA. Over the 
years, problems with implementation of the current statute have 
eroded public confidence in the Federal regulatory system, 
contributed to misperceptions about the safety of chemicals, 
and created uncertainty throughout interstate commerce.
    The discussion draft is a significant milestone in the TSCA 
reform debate. For the first time, there is now bipartisan 
reform measures before each House of Congress, and while the 
debate over TSCA reform certainly doesn't end with this 
hearing, there is now a very real opportunity to achieve TSCA 
reform this year, and we at ACC are very encouraged by the very 
positive comments that members of this subcommittee have made 
both on the process and the substance of the draft.
    Now, in 2009, ACC published a set of 10 fundamental 
principles for TSCA reform. The discussion draft, like S. 697, 
which is pending in the Senate, fully addresses all our 
principles. The draft addresses key issues and shortcomings in 
TSCA, and among the most important elements are that the draft 
requires that EPA evaluate risks only on the basis of health 
and environmental considerations. That was a key problem that 
has hampered implementation of the current Act to date.
    Under the draft, cost and benefit considerations are 
relevant only in deciding what regulatory option EPA will 
impose to control risks. We believe the draft strengthens EPA's 
authority to mandate the generation of new information on 
chemicals. The draft also protects sensitive commercial 
information from disclosure while requiring appropriate upfront 
substantiation of those claims.
    The draft also balances the interests of the State and 
Federal Governments by promoting a robust, uniform national 
chemical regulatory system.
    As the subcommittee continues its discussion, some elements 
of the draft do require some additional clarifications. We 
think there is a need for additional detail and direction to 
EPA on the manufacturer risk initiated--sorry--the 
manufacturer-initiated risk evaluation process. I think you 
heard comments to that effect from Mr. Jones. We think it is 
particularly important that Congress provide clear direction 
and clearly articulate its expectations for that process, and 
at a minimum, EPA should be required to promulgate rules or 
appropriate guidance so that all stakeholders understand how 
that process can produce risk evaluations that are timely, of 
high quality and are reliable.
    We also think it is necessary to clarify the interplay 
between section 6A and 6B and the presence or absence of an 
appropriate risk-management rule. This was one of the elements 
Mr. Jones mentioned at the conclusion of his testimony.
    ACC also believes that EPA must have access to appropriate 
resources to implement a reformed TSCA. Under the draft, TSCA 
fee revenue is deposed to the general Treasury. We believe 
those funds need to be returned to EPA.
    The draft also allows State governments to adopt 
regulations identical to those promulgated by EPA in certain 
cases. It would be helpful if the degree to which States may 
depart from the Federal approach in enforcing those 
regulations, if at all, should be clarified.
    Again, the bipartisan discussion draft is a significant 
step toward achieving TSCA reform this year. We look forward to 
working with all members of this subcommittee to ensure that 
TSCA reform builds confidence in the U.S. chemical regulatory 
system, protects health and the enforcement from significant 
risks, and meets the commercial and competitive interests of 
the U.S. chemical industry and the national economy.
    Thank you again for the opportunity to testify. I am happy 
to respond to questions.
    [The prepared statement of Mr. Walls follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shimkus. Thank you.
    Next I would like to turn to Dr. Beth Bosley, President of 
Boron Specialties, on behalf of the Society of Chemical 
Manufacturers and Affiliates. She has testified before. Welcome 
back, and you are recognized for 5 minutes.

                  STATEMENT OF BETH D. BOSLEY

    Ms. Bosley. Thanks very much. Good morning, Chairman 
Shimkus and Ranking Member Tonko, and everyone on the 
subcommittee, and thanks also for having me back to Washington 
to discuss TSCA, one of my favorite subjects. It has been 
really refreshing to hear so many positive statements being put 
forth by both the Democrats and Republicans on this issue, and 
we really applaud all the efforts to modernize TSCA. It covers 
such a wide variety of chemicals and applications, and it 
really impacts a huge swath of our economy, so it is really 
important, and given the range of interested parties, it is 
remarkable how much alignment has been achieved. It is a very 
complicated statute, and you have worked pretty hard not to 
make it more complicated, so I applaud that as well.
    I would just like to highlight a few things that I think 
are important in the discussion draft. The safety standard, as 
we have already heard today, corrects the fundamental flaw in 
the current TSCA that requires you to take cost into account. 
In this case, protection of human health and the environment is 
really the only driver for the safety standard, and that is a 
great improvement. EPA will make very different decisions under 
section 6 now than it has before, and it will allow policy and 
emerging science to inform protective determinations regarding 
these chemicals.
    For new chemicals, I have talked quite a bit I think here 
before that I think the new chemicals process works very well, 
and I would like it to remain basically as it is. It is one of 
the more important parts of the statute. It drives protection 
of our environment and our economy. Experience has taught us 
that new chemicals can be greener, and of course, we must 
continue to innovate because we live in a global economy now. 
If we want to promote innovation and develop greener 
chemistries, section 5 really must remain efficient, 
predictable, and affordable.
    We are also interested in timely access to the market, and 
the 90-day review window has proven sufficient in most cases. 
In some cases, EPA has to suspend or give itself another 90 
days, but in fact EPA often completes its review after day 22, 
which is really very early. It depends on how much information 
they are given, but after day 22 is often. We would certainly 
like to be able to go to market after day 22 as well.
    One area that TSCA hasn't worked, and we have heard about 
this a number of times already this morning, is with existing 
chemicals, but I think the discussion draft goes a long way to 
really solve the problems with existing chemicals. It can ask 
for data under section 4 really whenever it thinks it is 
necessary to conduct the risk evaluation. It doesn't have to 
make a finding, and that is a really great improvement.
    We do support a more comprehensive review of existing 
chemicals, and since there is no detailed screening process 
outlined in the bill, we are assuming EPA would go forward with 
its work plan chemicals as it has to date.
    We do also support deadlines for this review. I am not sure 
how long it takes, but I would say EPA probably has a good 
estimate of how long existing chemicals take to review. We know 
that deadlines work well in new chemicals, so they should work 
well in existing chemicals, but the deadlines and the workload 
really have to be achievable.
    Under section 8 for the reporting requirements, one of the 
most important factors we see there is an inventory reset. As 
we have heard already today, again, there are over 80,000 
chemicals on the inventory, but only 7,700 were reported on in 
the most recent CDR. That is a big disparity between what is in 
commerce and what is not in commerce.
    Currently, as a manufacturer, I report on exposures of 
chemicals to my employees, but then I also have to estimate 
exposures to my customers' employees, and that is pretty hard 
for me to do, especially as a small business. So I would think 
process of reporting would be very important to add to this--
requiring process of reporting would be very important language 
to add.
    Confidential business information is really important for 
all U.S. manufacturers, but especially small businesses like 
mine. CBI allows us to pursue research and market development 
without advertising to the world exactly what we are doing. 
Even so, we really appreciate that we must proceed with as much 
transparency as possible, and I think that resubstantiation 
after 10 years is an excellent addition to the current draft.
    Resources and fees: As we have all heard, EPA needs more 
resources, and getting those fees to EPA instead of the 
Treasury is really important. I also appreciate, as you might 
imagine, that you have given the provision for small-business 
reduced fees, and I wholeheartedly support that.
    So in general, just very much supportive of the bill. We 
think it fixes a lot of the problems with the current TSCA 
statute, and I am sure other issues will be raised, but we look 
forward to working through them with you.
    [The prepared statement of Ms. Bosley follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    Now I would like to recognize Ms. Jennifer Thomas, Director 
of Federal Government Affairs with the Alliance of Automobile 
Manufacturers, again, another returnee. Welcome, and you have 5 
minutes.

                  STATEMENT OF JENNIFER THOMAS

    Ms. Thomas. Thank you, Chairman Shimkus, Ranking Member 
Tonko. My name is Jennifer Thomas, and I am here on behalf of 
the Alliance of Automobile Manufacturers, which is a trade 
association of 12 automakers, and together they account for 
approximately 75 to 80 percent of all new vehicle sales here in 
the United States. The last time I was before this committee, I 
was beamed in from Europe, so I am very happy to be here in 
this person this time, so thank you for giving me the 
opportunity to share our views on the draft TSCA Modernization 
Act of 2015.
    We commend Chairman Shimkus, Chairman Upton, and Ranking 
Member Pallone for their bipartisan efforts to reform TSCA for 
the first time since it was enacted in 1976.
    Automakers work diligently to identify and reduce 
substances of concern in automobiles. We have eliminated the 
use of mercury switches and lead wheel weights. We continue to 
phase out the use of the flame retardant deca, and we are 
eliminating copper from brake pads.
    Autos are also one of the most recycled consumer products. 
Nearly 90 percent of a vehicle's material content is recycled 
or reused.
    But clearly there is more work to do to protect the public 
and environment from harmful chemical substances, and we want 
to be part of the solution. We welcome this discussion draft 
and believe it will enhance EPA's ability to more effectively 
regulate potentially harmful chemicals while providing industry 
a clear and consistent regulatory environment.
    Let me take a moment to highlight some specific areas of 
interest to our industry. First, we support the manner in which 
this draft seeks to regulate chemicals and articles. This 
approach is consistent with existing EPA policy, which has 
traditionally recognized the complexity of regulating chemicals 
and articles by exempting them from most TSCA requirements. We 
understand the potential need to regulate articles in certain 
circumstances but this should be based on risk of exposure to 
the chemical in question. For example, there is a clear 
difference between the risk of exposure to a chemical substance 
in a baby bottle versus an engine component underneath the hood 
of a car.
    Secondly, we believe that vehicles should be serviced with 
parts as produced, meaning those service parts used the 
material that were acceptable when the vehicle was designed, 
certified and warrantied. Replacement part demand is very 
small. It is generally 1 to 5 percent of all vehicle parts, and 
it declines over time as a vehicle fleet is retired. Btu since 
the average age of a vehicle on the road today is 11 years, 
replacement parts must be available for many years so that 
those vehicles can be serviced and maintained.
    There is often some confusion of how vehicle replacement 
parts are produced, so let me briefly explain this model. 
Automakers typically put a marginal supply of those parts in 
stock while the vehicle is still in production, and to the 
extent that customers need replacement parts beyond that 
initial stock, there is a production-on-demand market, and 
suppliers continue to produce them using the same materials, 
the same production process, and the same engineering 
specifications as for the original vehicle. So while 
replacement parts might theoretically be able to be redesigned 
for vehicles no longer in production, there are technical and 
logistical barriers that often make such redesign infeasible if 
not impossible.
    I would also note that similar laws regulating chemical 
substances have examined this issue and have opted to exempt 
replacement parts.
    Finally, we appreciate this draft's simplified approach to 
State preemption, which ensures that any EPA final 
determination will preempt State chemical regulations. However, 
we do recommend that the committee also consider suspending any 
new State action while EPA decides a chemical substance is a 
candidate for a risk evaluation. We are aware of the concern 
expressed about the passage of time while EPA considers 
regulatory action and are supportive of expedited time frames 
for EPA action.
    Thank you again for inviting me to be here and discuss this 
important issue with you today. Congress is on the cusp of 
reforming TSCA for the first time in nearly 40 years, and we 
strongly believe that the final bipartisan product will more 
effectively regulate harmful chemicals in a way that protects 
the health and safety of all Americans while providing industry 
the certainty and the clarity that it needs. We look forward to 
working with you as this draft moves through the legislative 
process.
    I thank you again, and I would be happy to answer any of 
your questions.
    [The prepared statement of Ms. Thomas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much.
    The Chair now recognizes Mr. Andy Igrejas, Director of 
Safer Chemicals, Healthy Families. Welcome back. You are 
recognized for 5 minutes.

                   STATEMENT OF ANDY IGREJAS

    Mr. Igrejas. Thank you very much, Mr. Chairman and Mr. 
Tonko. I am pleased to be here as like the other witnesses are.
    Safer Chemicals, Healthy Families is a coalition of 450 
organizations and businesses. It ranges from the Learning 
Disabilities Association, the Steelworkers Union, large health 
providers like Dignity Health, and the major national 
environmental organizations.
    We all came together to reform TSCA in 2009, and we 
definitely want to have it happen sooner than later, and we are 
glad to work with the committee toward that end.
    I want to highlight what we see as positive in the draft, 
what is missing, and some ideas for how to move forward. I want 
to also say up front that we think the more targeted approach 
you have taken does hold a lot of promise. There is a lot that 
it potentially solves and points the way forward, and also to 
identify some of the elements that are in there that we 
support.
    The absence of a complicated prioritization scheme we think 
is wise. It avoids the downside of the low-priority loophole 
that a lot of us are concerned about. You also heard from EPA 
that they already have prioritization criteria they have gone 
through that had public input, et cetera.
    The approach to preemption by preserving more of TSCA's 
existing preemption, you avoid the controversy of the void or 
the suspension whereby States are blocked just because EPA is 
looking at something, and we appreciate that. The draft also 
doesn't roll back EPA's authority on products or imports, so we 
think you have threaded the needle on the issue of products and 
don't take away authority on some of these other areas. It 
doesn't make it easy to require toxicity testing. It does 
remove the least-burdensome requirement, which was an issue in 
the asbestos decision, and vulnerable populations are addressed 
though there is some clarification potentially needed around 
the rulemakings.
    I want to focus on the issue of cost and see if I can add 
some value. It was talked about a lot. We basically agreed with 
where EPA came down on this, that we don't see that issue as 
solved in this draft, and to try to put it simply, I think in 
our vision, you want the risk evaluations to clearly identify 
the risk including the vulnerable populations and you want the 
rulemaking to have to protect against that risk very clearly. 
And then the cost considerations including cost-effectiveness 
comes into play with how EPA does that, which can mean longer 
time frames for implementing some particularly costly piece of 
the risk management. It can include choosing a more cost-
effective way of addressing the risk over another way. But you 
don't want it to be a limitation on whether the risk is 
addressed at all, and that is the key distinction that we still 
see as potentially not solved. So it literally comes down to, 
will you have a risk hanging out there that EPA has identified 
and at the end we will be able to tell the story that the 
public is now protected from that risk and have that be true, 
or we potentially have the story that EPA winds up saying we 
actually didn't protect against the risk because a court found 
that we couldn't prove that the cancer cases and the hospital 
visits, the lost work, et cetera, outweighed the costs to the 
companies to move to the safer alternative. That is the 
difference that this hinges on, and so I am not sure if we have 
a difference of intent or of interpretation of the language, 
but that is the key thing we would like to see solved is that 
the risk management has to protect against the risk.
    We also would agree with what has been said about the 
imbalance between industry assessments and the assessments that 
EPA would undertake under its own power under the draft. 
Really, the industry assessments are the only thing driving EPA 
activity under this draft. They have to agree to these requests 
and they have to undertake them, and on the flip side, they 
have to go through some hoops before they can undertake an 
assessment, and that creates an imbalance that we think could 
lead to them looking more at the chemicals that are already 
being managed well or that are already safe that have a lot of 
data instead of the ones that are causing problems out in the 
real world right now. And so we think if you got rid of those 
extra barriers put in place--this issue came up of 20 chemicals 
a year, a requirement perhaps to do that. That is a nice round 
number. Maybe giving them a deadline to complete work on the 
chemicals that have been talked about, the 90 work plan 
chemicals, then we are on the way to driving some EPA action on 
the chemicals in addition to having this industry-initiated 
assessments.
    We agree with what has been said about fees. I have 
mentioned some other issues in more detail in the written 
testimony around the science provisions in the bill. We think 
that you could take--if you are going with less is more, you 
can go all the way and not direct EPA to take a position on 
some of these scientific questions, but if you are going to do 
that, there are places in the bill where what you are calling 
for is stuff that the National Academy of Sciences has actually 
said EPA shouldn't do and there are some things the National 
Academies have said EPA should do that aren't in there, and so 
I would say pull back or go further with what the National 
Academies would like to do.
    Persistent bioaccumulative toxins--these are the chemicals 
that are like PCBs. One of the only success stories of the 
original TSCA, there is a limited number of them, chemicals 
that are like that, identifying them early and requiring 
action.
    So I will stop there but I will just say that we think all 
the issues that we have identified are things that could be 
solved in the draft. We wouldn't support the draft in its 
current form. But with the changes that we have talked about, 
it could be getting in shape where you would have a genuine 
public health achievement here.
    [The prepared statement of Mr. Igrejas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank you for your opening statement, and I 
will turn to myself for the start of the first round of 
questions and recognize myself for 5 minutes.
    Mr. Walls, under section 6 of the House discussion draft, 
EPA must determine that a substance presents or will present in 
the absence of risk-management measures and unreasonable risk 
of injury to health or the environment. Do you believe the 
discussion draft establishes a workable process for evaluating 
risk and identifying necessary risk-management measures?
    Mr. Walls. Yes.
    Mr. Shimkus. Do you believe the discussion draft provides 
clear direction to EPA to consider only health and environment 
considerations in evaluating the risk of chemical substances?
    Mr. Walls. Yes.
    Mr. Shimkus. And then Dr. Bosley, do you agree with the 
bill's provision that breaks out risk evaluation, analysis of 
hazard and exposure as a separate question from the details of 
how to restrict a chemical by rulemaking?
    Ms. Bosley. Yes, I do.
    Mr. Shimkus. You have previously testified that Congress 
should include deadlines in TSCA. The updated discussion draft 
contains enforceable deadlines. Does the way that the 
discussion draft handles this matter satisfy you?
    Ms. Bosley. It does. I would like to see clearer deadlines 
that can be achieved by EPA.
    Mr. Shimkus. Are you concerned that deadlines might force 
EPA into making decisions to meet a deadline?
    Ms. Bosley. I am sorry. What was----
    Mr. Shimkus. Do you think--well, the deadline issue, which 
is obviously a debatable question, would force them to make a 
quicker decision because of the deadline versus the science I 
guess is a better way to put it. Do you think the deadlines 
will force them to make bad----
    Ms. Bosley. A bad call?
    Mr. Shimkus. Yes.
    Ms. Bosley. I don't think so. The scientists and engineers 
at the EPA are very talented, and I think given what we have 
seen with new chemicals, they are able to make decisions in a 
very timely manner, and I think with the correct resources for 
existing chemicals--I think it all hinges on that as to how 
quickly they can address, so with correct resources, they 
should be able to----
    Mr. Shimkus. What about the debate from the business 
perspective and the issue of litigation on missing a deadline 
or the like?
    Ms. Bosley. Yes. So I guess if it were up to me to write 
the bill, I would give EPA the ability to say, ``Look, this 
happened, and so we need this much more time, we need another 3 
months.'' So I would give them that ability. We wouldn't want 
that to go on for years and years, but I would give them the 
ability to say, ``Well, there is this unforeseen circumstance, 
and we need a little more time.''
    Mr. Shimkus. The discussion draft permits a manufacturer to 
request EPA to conduct a risk evaluation of a chemical 
substance. Do you agree that this process can help EPA 
accelerate their review of existing chemicals in commerce?
    Ms. Bosley. I should think it would, yes.
    Mr. Shimkus. In your business, do you conduct a basic risk 
evaluation of your chemical products and could that information 
inform EPA's review of a substance?
    Ms. Bosley. We do. We don't do a reaction in the lab 
without performing a risk evaluation beforehand.
    Mr. Shimkus. So it kind of addresses some of the questions 
we had to Mr. Jones on definitive timelines, and I guess to you 
and then I will go to Mr. Walls, talk about what would industry 
do if they are going to pay a fee to have a chemical reviewed? 
Would you think that there would be then a partnership that the 
sectors would be trying to work together or do you think they 
would just do that without providing information?
    Ms. Bosley. Oh, no, I would think that they would work 
together.
    Mr. Shimkus. Because that would help you expedite the 
system. You could check your----
    Ms. Bosley. In my case, for a small business, I would 
suspect we would have less to add than maybe a larger business, 
because I don't have any toxicologists on staff, for instance. 
So I would rely on EPA toxicologists. So it may differ between 
the actual business and the actual circumstance how much 
information would be given, but we would always try to 
participate very heavily with EPA.
    Mr. Shimkus. And Mr. Walls?
    Mr. Walls. Mr. Shimkus, I think what has been the hallmark 
of section 5 right now, the new chemical review provision, has 
been that it has promoted a dialog between the industry and 
EPA. I would see the same sort of circumstance applying here in 
the manufacturer-initiated process.
    Mr. Shimkus. And that again back to you, Mr. Walls and Dr. 
Bosley, and in this process under new chemicals, are you 
confident that confidential business information as you are 
going through this process with the EPA is currently being 
protected? Obviously that is a concern that we try to address a 
little bit.
    Mr. Walls. EPA has very rigorous controls to protect 
confidential information, yes.
    Ms. Bosley. I am confident all of our information is 
protected.
    Mr. Shimkus. Great. I think that is all I have, so with 
that--and Mr. Igrejas, we look forward to continuing to work 
with you because obviously we are moving forward. There is some 
bipartisan interest, and we want to continue to be open, so 
let's keep working together.
    With that, I yield back my time and turn to the ranking 
member, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and thank you again to all 
the members of the panel. Your testimony is obviously very 
helpful, and we appreciate your participation.
    I would like to follow up on the earlier questions I had of 
the first panel member, and under the draft, manufacturers 
would have unlimited ability to require EPA to conduct risk 
evaluations, and there is no required number of EPA-initiated 
risk evaluations.
    Mr. Igrejas, do you find that to be a concern?
    Mr. Igrejas. We do. I would share the concern that Mr. 
Jones raised, that they really don't have the ability to--the 
discretion to turn down the request and then they have to 
complete it under an expedited time frame. I imagine that those 
risk evaluations would be valuable to a number of companies. 
There are a number of companies who have developed data and 
they would bring that forward. And even if that is all on the 
up and up, in other words, even if EPA agrees and we would 
agree looking at the data, if that winds up being most of what 
they do, you are really not dealing with the chemicals that are 
causing a problem for public health and the environment right 
now. So even if you take the process at the most positive view 
of it--but I think there is another element too which is as far 
as I can tell, the burden of proof would still be on EPA, so 
they have to undertake this evaluation but then the burden of 
proof is still on them if they find an unreasonable risk to 
prove with substantial evidence, et cetera, et cetera. So it is 
not that--they are not--they would be doing it a little bit 
under the gun in that sense. It is not like the drug burden of 
proof that we have.
    Mr. Tonko. And Mr. Jones spoke about the need for 
clarification to ensure that determinations as a risk must be 
acted on would not include cost considerations. Do you agree 
that EPA's determinations of whether a chemical substance needs 
risk management should be made without cost considerations?
    Mr. Igrejas. We would agree with what he said, that they 
should identify the risk cleanly, health only, is this causing 
an unreasonable amount of risk, cancer, learning disabilities, 
birth defects, et cetera, and then the rule should be required 
to adequately protect against the risk, and then the cost 
considerations should be sort of behind that line, how you do 
that, how quickly can we phase in alternatives, how quickly can 
we impose these restrictions. That is where the role of cost 
should come in. And the draft, we would agree with him that it 
is a judgment call and we are concerned that a court could find 
that the old balancing still applies. As we know from the 
asbestos decision, that was where you had risks that were so 
severe, you had an unusual level of quantifiableness to the 
health cost of asbestosis and mesothelioma, and the court still 
find that EPA couldn't prove that those quantifiable costs 
outweighed the benefits that asbestos brought to the economy. 
So it is a very--it is a big issue that has to be gotten right.
    Mr. Tonko. So I am hearing a little clarification needed in 
the language of the draft.
    What about our other panelists in that regard to the cost 
language?
    Ms. Bosley. Oh, yes, I think that clarification there to 
give EPA guidance would be very helpful. We wouldn't want it to 
end up in the courts as well.
    Mr. Walls. Mr. Tonko, I think the discussion draft reflects 
a desire to ensure that EPA continues to have the discretion, a 
considerable amount of discretion in managing the process, et 
cetera. I don't think that the language in and of itself 
mandates that EPA adopt a process that raises the very same 
problems we have under current law. I think the intent is clear 
to do something different if it takes an additional 
clarification to get there. I hesitate----
    Mr. Tonko. If left as is, does it invite additional 
litigation?
    Mr. Walls. It might, but I think the clear intention here 
is that, you know, EPA ought to be taking a very reasonable 
approach in looking at what are the costs and efficiencies 
related to the regulatory options under discussion.
    Mr. Tonko. But I think we can agree that we all want to 
avoid any threat of additional litigation.
    Ms. Thomas?
    Ms. Thomas. I would agree with Mr. Walls, and just add 
that, you know, as an end user of chemicals, we strongly 
believe that cost should be a factor in the risk-management 
process.
    Mr. Tonko. And if we could turn to the use of science, Mr. 
Igrejas, do you have concerns about the requirements to use the 
weight of the scientific evidence as defined in this draft?
    Mr. Igrejas. Yes, we do. Even though that phrase sounds 
innocuous, the National Academy of Sciences weighed in a report 
that Congress requested saying that the phrase was ambiguous 
and were concerned that it could cause some needless delays and 
potentially litigation hooks over what kind of information was 
included and referred to be EPA in an assessment.
    Mr. Tonko. Thank you. With that, I yield back, Mr. Chair.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the vice chair of the subcommittee, Mr. Harper, for 
5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to each of 
you for being here.
    Ms. Thomas, if I may ask you a few questions, what is the 
typical lead time from, say, the design to the time that a new 
car is going to show up on the showroom floor?
    Ms. Thomas. Thank you for your question, and, you know, it 
varies amongst automakers but generally lead time is 5 to 7 
years for a new production model. It is obviously longer for 
advanced technologies like electric vehicles. But that goes 
back to the articles debate and why, if EPA were to take action 
on a chemical substance in an article there should be, you 
know, lead time should be considered in that process.
    Mr. Harper. So when EPA is looking at what they are going 
to do in a situation, that is something you believe they should 
take into account is that significant lead time on what they 
are going to try to do?
    Ms. Thomas. Absolutely, because we need that time to 
obviously make the necessary changes and suitable alternatives 
should also be available.
    Mr. Harper. What are some practical examples from your 
members that help illustrate why you are seeking these changes 
to TSCA?
    Ms. Thomas. So, you know, our top priority is one single 
national program for chemical management, and that it be 
implemented at the Federal level. You know, a patchwork of 
inconsistent, conflicting State requirements just imposes a 
huge burden on complex durable-goods manufacturers like 
automakers. We manufacture vehicles to meet customer needs and 
to be sold in all 50 States, and inconsistent requirements, 
like, for example, there is--California and Washington State 
have brake friction standards to eliminate heavy metals and 
asbestos, and as much as they have tried to harmonize those 
regulations, there is still inconsistencies that we require a 
lot of resources and significant time obviously.
    Mr. Harper. So you can't have 50 different cars--the same 
car designed 50 different ways to sell in each State?
    Ms. Thomas. No, that would be quite challenging.
    Mr. Harper. Although sometimes you feel like that is what 
you might have to do.
    Please explain the technical, economic and logistical 
barriers that often make such redesigned replacement parts 
infeasible if not perhaps impossible to achieve.
    Ms. Thomas. Sure. So like I indicated, there is a lot of 
confusion around this area. You know, we are not talking about 
all automobile parts, and we certainly don't believe that they 
should be exempt from TSCA requirements. We are talking about a 
small universe of parts, 1 to 5 percent of vehicle production 
parts, and it is critical that those parts are needed to 
servicing and maintaining the existing fleet and, you know, the 
average age of a car is 11 years old. We are making vehicles 
that last longer these days and so we have to be able to repair 
them and service them and so that is why that exemption is 
necessary.
    Mr. Harper. Thank you very much.
    Ms. Bosley, you have long been an advocate for maintaining 
section 5 and ensuring strong CBI protections. Does this 
updated discussion draft appropriately handle those sections to 
your satisfaction?
    Ms. Bosley. It does. We are very happy with maintaining the 
CBI with substantiation, and we are also happy to 
resubstantiate or not after a certain amount of years. Section 
5 works very well. The deadlines are adequate, and EPA can 
always extend if they need it, so we are very happy with 
section 5.
    Mr. Harper. Do you believe that generic names and unique 
chemical qualifiers or identifiers will provide the public 
concrete enough information about your chemical without giving 
away your intellectual property?
    Ms. Bosley. I think so. I think that manufacturers work 
with EPA to provide robust generic chemical names that might 
identify the portion of the molecule that is causing the 
concern or the hazard, and that is where we need to get to.
    Mr. Harper. Thank you, and I yield back the balance of my 
time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    As I discussed with the first panel, I see some areas for 
improvement but I also think there are a lot of strong points 
in the chairman's discussion draft, so let me start with Mr. 
Igrejas.
    I am particularly interested in your analysis that leaving 
the unreasonable-risk language in place along with the 
heightened standard of judicial review could perpetuate the 
problems EPA has faced in regulating dangerous chemicals. So do 
you think an important measure of any TSCA reform proposal is 
whether it empowers EPA to regulate known dangerous chemicals 
like asbestos, for example?
    Mr. Igrejas. Certainly. I think that is the main lesson 
from the asbestos decision.
    Mr. Pallone. OK. Do you think it is important that any TSCA 
reform proposal provide for expedited action to manage the 
risks from chemicals that are persistent, bioaccumulative and 
toxic?
    Mr. Igrejas. Absolutely.
    Mr. Pallone. And why is this expedited action important for 
those chemicals?
    Mr. Igrejas. The lesson from TSCA's action on 
polychlorinated biphenyls, which is something TSCA originally 
did, is that those qualities taken together mean the chemical 
is around for a longer time and the risk winds up compounding 
because it builds up in the food chain. So the levels go up for 
the end user, for people, over time and so you need to identify 
them earlier and take more aggressive action to restrict them 
earlier even to see the public health improvements 20 years 
later, and that is the story of PCBs.
    Mr. Pallone. Well, going back to PCBs, do you think that 
naming those chemicals in the statute helped move risk 
management forward, and would you support something similar for 
PBT chemicals?
    Mr. Igrejas. Well, we certainly would. We have supported 
that in the past. That is the simplest way of having them in 
the draft. You could also put in criteria for PBTs and require 
EPA to do the identification but naming this is fastest.
    Mr. Pallone. And I hope that we can work with the chairman 
as we move forward to include authorities for, you know, the 
way you suggested. I believe the draft shows the chairman's 
intent to ensure that the problems identified in Corrosion 
Proof Fittings are addressed, and that is an intent I share.
    I just wanted to, if I could, in the time I have left, if I 
could just call attention to some of the strengths in this 
draft, which reflect points of strong agreement between 
stakeholders, and I just wanted to go down the line, you know, 
and as much as possible just answer yes or no, and I ask each 
of you to answer each of these questions.
    Do you support removing the least-burdensome language that 
has been an obstacle to EPA action under section 6? Mr. Walls?
    Mr. Walls. Yes.
    Mr. Bosley. Yes.
    Ms. Thomas. Yes.
    Mr. Igrejas. Yes.
    Mr. Pallone. Is the reporter able to get that? All right.
    Do you support giving EPA authority to require testing 
through orders, not just rulemaking? Mr. Walls?
    Mr. Walls. Yes.
    Mr. Bosley. Yes.
    Ms. Thomas. Yes.
    Mr. Igrejas. Yes.
    Mr. Pallone. OK. I don't want to go too fast. Do you all 
support upfront substantiation of future CBI claims?
    Mr. Walls. Yes.
    Mr. Bosley. Yes.
    Ms. Thomas. Yes.
    Mr. Igrejas. Yes.
    Mr. Pallone. OK. Do you all support explicit protections 
for vulnerable populations?
    Mr. Walls. Yes. I think the discussion draft appropriately 
acknowledges the need to address potentially exposed 
populations.
    Mr. Pallone. Dr. Bosley?
    Mr. Bosley. I do as well.
    Ms. Thomas. Yes, we do.
    Mr. Igrejas. Yes.
    Mr. Pallone. OK. Do you all see these changes in the draft 
as valuable?
    Mr. Walls. Yes, although I wouldn't necessarily agree, Mr. 
Pallone, with Mr. Igrejas' comments regarding asbestos and PBTs 
because the discussion draft limits in no way EPA's discretion 
to identify true priorities. But other than that, yes, we 
support changes.
    Mr. Pallone. Dr. Bosley?
    Mr. Bosley. We support as well.
    Mr. Pallone. Ms. Thomas?
    Ms. Thomas. We support as well.
    Mr. Igrejas. Yes.
    Mr. Pallone. OK. And well, again, I got through this fairly 
quickly. I guess when you ask yes or no questions, it is easier 
to get through everything quickly.
    So I just want to again thank the chairman for working with 
us as we move forward to get this done. Thanks again. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Oregon, Mr. Schrader, 5 
minutes.
    Mr. Schrader. I pass, Mr. Chairman.
    Mr. Shimkus. The gentleman passes, and the Chair recognizes 
the gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Well, thank you, Mr. Chairman. I just want to 
say I appreciate your bipartisan work in getting this draft 
ready.
    Mr. Shimkus. Don't let that information out.
    Mr. McNerney. OK. I will be careful not to.
    Mr. Igrejas, I am going to ask about the catch-22 provision 
here. I don't think that has been asked yet.
    The ``may present unreasonable risk'', could you explain 
why that is a catch-22 and what we can do about that in the 
draft?
    Mr. Igrejas. Sure. I think the lesson of TSCA, and because 
of the approach in this draft, I think it got a lot of us 
looking back at original TSCA more, and you read it, and there 
are a lot of things that sound reasonable, they sound like they 
should have worked, and it just turned out that when a court 
got into them and EPA anticipating that, they didn't. They 
really turned out to be significant barriers to EPA acting, and 
I think this would be in this category. On its face, it sounds 
like before EPA should get started, shouldn't they decided 
well, this might be something that is a problem, but the 
history I think of this statute and of EPA interpreting is that 
it could trip them up substantially. If they really have to 
show that it may before they undertake the evaluation to see if 
it does, it seems unnecessary in the spirit of the more 
stripped-down approach in expediting them taking action.
    Mr. McNerney. OK. Now, the heightened standard of judicial 
review, EPA actions taken under TSCA must be supported by 
substantial evidence in the rulemaking record, and that is a 
substantially higher--well, that is significantly higher than 
the ``arbitrary and capricious'' standard that is normally used 
for EPA rules. Could you comment on how that could be improved 
in the TSCA?
    Mr. Igrejas. We think taking it out would be the 
improvement in having ``arbitrary and capricious'' apply to 
this statute as well. One of the things I think is lost is, it 
is not just that the court threw out the EPA rulemaking on 
asbestos but that because of substantial evidence, it took EPA 
10 years to put together that record. I think it was a 40,000-
page record. And so it has an impact on how much time--how much 
EPA feels it has to put under its feet in order to go forth and 
make a rulemaking in addition to the risk of something getting 
thrown out of court. So I feel it being removed would put it in 
line with other environmental laws.
    Mr. McNerney. Well, my understanding is, the ``supported by 
substantial evidence in the rulemaking record'' is what 
prevented the rules on asbestos from being implemented.
    Mr. Igrejas. That is right.
    Mr. McNerney. And that is clearly, you know, a 
disadvantage.
    Mr. Igrejas. It was the third leg of the stool, so to 
speak, in preventing EPA from taking action on asbestos.
    Mr. McNerney. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no other members present, I want to thank the panel 
for coming. It was a pretty good hearing. I think there are 
things that we want to continue to discuss. I did announce a 
date for a subcommittee mark, and the only thing I will say too 
is, as we move forward, we don't have to get it prefect right 
the first bite. We have subcommittee, we have full committee. 
Then hopefully the Senate will move something. We go to 
conference. There are going to be a lot of opportunities. But I 
appreciate the positive comments from all my colleagues. I 
understand the issues that they have concerns on. We look 
forward to really having an opportunity to get this thing done, 
and we look for your input to be able to do that.
    So I will dismiss the second panel, and I will ask 
unanimous consent that all members of the subcommittee have 
five legislative days to submit opening statements for the 
record.
    I also ask unanimous consent that the following letters to 
the subcommittee regarding the discussion draft at our hearing 
today be included in the record. The letters are from the 
American Cleaning Institute, the Environmental Working Group, 
the Bipartisan Policy Center, Society of Toxicologists, the 
American Alliance for Justice, and a statement by Dr. Paul 
Locke. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I will adjourn the hearing.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
   
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

                                 <all>
</pre></body></html>
